<html>
<title> - OVERSIGHT OF THE DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










                 OVERSIGHT OF THE DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

                           Serial No. 114-88

                               __________

         Printed for the use of the Committee on the Judiciary



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://judiciary.house.gov
      
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-722 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                             JULY 12, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable Loretta E. Lynch, Attorney General, United States 
  Department of Justice
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable Loretta E. 
  Lynch, Attorney General, United States Department of Justi88<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Cedric Richmond, a Representative 
    in Congress from the State of Louisiana, and Member, Committee on 
    the Judiciary. This material is available at the Committee and can 
    also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105175

Material submitted by the Honorable Karen Bass, a Representative in 
    Congress from the State of Calfornia, and Member, Committee on the 
    Judiciary. This material is available at the Committee and can also 
    be accesed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105175

Material submitted by the Honorable Bob Goodlatte, a Representative in 
    Congress from the State of Virginia, and Chairman, Committee on the 
    Judiciary. This material is available at the Committee and can also 
    be accesed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105175
 
                   OVERSIGHT OF THE DEPARTMENT OF JUSTICE

                              ----------                              


                         TUESDAY, JULY 12, 2016

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:09 a.m., in room 
2237, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Smith, 
Chabot, Issa, Forbes, King, Franks, Gohmert, Jordan, Chaffetz, 
Gowdy, Labrador, Farenthold, Collins, DeSantis, Walters, Buck, 
Ratcliffe, Trott, Bishop, Conyers, Nadler, Lofgren, Cohen, 
Johnson, Chu, Deutch, Gutierrez, Bass, Richmond, DelBene, 
Jeffries, Cicilline, and Peters.
    Staff Present: Shelley Husband, Chief of Staff & General 
Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Zachary Somers, Parliamentarian & General Counsel; 
Caroline Lynch, Chief Counsel, Subcommittee on Crime, 
Terrorism, Homeland Security, and Investigations; (Minority) 
Perry Apelbaum, Staff Director & Chief Counsel; Aaron Hiller, 
Chief Oversight Counsel; Joe Graupensperger, Chief Counsel, 
Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigations; James Park, Chief Counsel, Subcommittee on the 
Constitution and Civil Justice; Susan Jensen, Senior Counsel; 
David Greengrass, Counsel; and Veronica Eligan, Professional 
Staff Member.
    Mr. Goodlatte. The Judiciary Committee will come to order.
    And, without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to today's hearing, an oversight of the 
Department of Justice.
    And I will begin by recognizing myself for an opening 
statement.
    Welcome, General Lynch, to your second appearance before 
the House Judiciary Committee.
    The flags over the Capitol are flying at half-mast in 
recognition of the five Dallas police officers murdered in cold 
blood last week. This was not an arrest gone wrong. The person 
who carried out this appalling act of terror and hate stalked 
and murdered five police officers and injured seven others and 
two civilians, ostensibly in retaliation for recent police 
shootings, including the tragic and fatal shootings in 
Minnesota and Louisiana last week.
    We mourn all those tragedies. The divisiveness between our 
police and our communities must end. And I ask that we observe 
a moment of silence for all those who have lost their lives in 
these tragedies.
    [Moment of silence observed.]
    Mr. Goodlatte. Thank you.
    We must not give in to hate and let emotion replace reason. 
We must bridge the divide that separates us and embrace one 
another as Americans. We must have faith that the institutions 
that have sustained our Republic for the last 240 years will 
deliver fair, impartial justice to victims of crime and punish 
the guilty.
    I look forward to your thoughts on this important matter.
    The American people also expect government officials to 
abide by the law just like everyone else and to be reprimanded 
when they break the law. That is not the case for former 
Secretary of State Hillary Clinton. Last week, FBI Director 
James Comey announced that he would not recommend criminal 
charges against Secretary Clinton for her use of a private 
email server while at the State Department and the mishandling 
of classified information.
    The timing of and circumstances surrounding this 
announcement are particularly troubling. On Monday, June 27, 
Attorney General Lynch, you met privately with former President 
Bill Clinton aboard your plane on the tarmac of the Phoenix 
airport despite the fact that his wife was the target of an 
ongoing criminal investigation.
    This encounter is even more troubling if the FBI is also 
investigating improper donations to the Clinton Foundation, 
which was founded by former President Clinton, a member of the 
foundation's board of directors.
    Five days later, the FBI held its first and only interview 
with Secretary Clinton after a yearlong investigation. Three 
days later and on the first day back from a holiday weekend, 
Director Comey publicly announced that he was not recommending 
charges against Secretary Clinton. And a mere 24 hours later, 
Attorney General Lynch, you issued a press release announcing 
that no charges would be brought against Secretary Clinton.
    While Director Comey may have refused to criminally indict 
Hillary Clinton, his public pronouncement and subsequent 
congressional testimony is nonetheless a public indictment of 
her conduct and character.
    Though Director Comey declined to recommend charges, he 
laid out sufficient facts to warrant a referral to the Justice 
Department. That forces one to confront the question of whether 
someone who was not in Secretary Clinton's position would have 
fared as well with the FBI as she did.
    Secretary Clinton stated repeatedly that no classified 
information was contained within her private email system. This 
is not true. The FBI found 110 emails in 52 email chains 
containing classified information at the time they were sent or 
received.
    Secretary Clinton stated repeatedly that no information in 
her emails was marked ``classified.'' This is not true. The FBI 
found that some of these emails were marked ``classified.''
    Secretary Clinton said all relevant emails were returned to 
the State Department. This is not true. The FBI found thousands 
of work-related emails that were not returned.
    But all of this evidence, according to Director Comey, 
amounted only to, ``extreme carelessness'' by Secretary Clinton 
and her staff. And although the Director admitted that there is 
evidence of potential violations of the statutes regarding the 
handling of classified information, he went so far as to 
publicly declare that ``no reasonable prosecutor would bring 
such a case.''
    This defies logic and the law. Contrary to Director Comey's 
assertions, the law does not require evidence that a person 
intended to harm the United States in order to be criminally 
liable for the mishandling of classified information.
    To be sure, Congress has set forth a variety of statutes on 
this subject with different intent requirements and penalties. 
Were a rank-and-file Federal employee to do what Secretary 
Clinton did, they would face severe punishment, including 
termination, revocation of security clearances, or criminal 
prosecution. Even Director Comey acknowledged this fact at a 
recent congressional hearing. But Secretary Clinton is not 
facing prosecution for her actions.
    This has now become an issue for Congress, in that it 
appears Secretary Clinton testified falsely when appearing 
under oath before the Select Committee on Benghazi. Yesterday, 
I and Oversight and Government Reform Chairman Chaffetz asked 
the United States Attorney for the District of Columbia to 
investigate Secretary Clinton's testimony before Congress.
    Secretary Clinton's extreme carelessness possibly 
jeopardized the safety and security of our citizens and Nation. 
Her extreme carelessness suggests she cannot be trusted with 
the Nation's most sensitive secrets if she is nevertheless 
elected President.
    Frankly, the FBI's conclusion leaves many more questions 
than answers, and we hope, Madam Attorney General, to get 
answers to those questions today.
    Thank you.
    And it's now my pleasure to recognize the Ranking Member of 
the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman.
    And welcome, Madam Attorney General, for being with us 
today.
    The news of the past few days have been full of questions 
about violence, civil rights, and the safety of our police 
officers. And I want you to know that we take seriously the 
burden of each of these questions on your office.
    It will not have escaped your attention that we're in the 
middle of an election season. You may also know that there are 
just 3 working days left until we break for the summer and 
really not much more time after that until the Congress ends.
    Elections are about choices, and a short working schedule 
is about setting priorities. As you are no doubt aware, one of 
this Committee's top legislative priorities is criminal justice 
reform. We have already found consensus on a range of such 
issues, including sentencing, prison, and asset-forfeiture 
reform.
    The Chairman of this Committee and I also stand on the 
precipice of an agreement on policing-reform legislation. Given 
the events of the past week, the need for this measure has 
never been more urgent. Questions about the use of lethal force 
by police are not new, but the Nation is newly engaged in the 
issue after Ferguson, Staten Island, Cleveland, North 
Charleston, and Baltimore. Over the past week, we saw the same 
sad themes play out in Baton Rouge and Minnesota, as well as 
the horrific killing of five police officers in Dallas.
    I believe it's more critical than ever that we reach a 
final agreement on police accountability and standards. At the 
time when African-Americans are 30 percent more likely than 
Whites to be pulled over while driving, more than three times 
more likely to have their car searched, and more than twice as 
likely to be shot by police, it is imperative that we restore 
public faith in our criminal justice system.
    We must finish this work for both the communities that feel 
so much anguish this week and for the officers who patrol our 
streets every day. It's my sincere hope that we consider this 
matter before we adjourn.
    Unfortunately, there are many other areas where we have not 
been able to advance bipartisan initiatives. I would like to 
tell you that we are prepared to have a substantive discussion 
about the manner in which we will restore section 5 of the 
Voting Rights Act.
    The preclearance mechanism was used for decades by your 
department to restore a sense of fairness in jurisdictions that 
have known prejudice for generations. Since it was struck down, 
we have seen at least 17 States enact measures designed to 
restrict access to the ballot box.
    Bipartisan legislation has been introduced that would have 
restored this vital tool long before voting began this year, 
but Mr. Sensenbrenner of Wisconsin's legislation sits 
untouched.
    I would also like to tell you that we are prepared to 
address the scourge of gun violence in this country. The events 
last week in Baton Rouge, in Minnesota, and in Dallas and the 
anger and sadness felt in communities across the Nation are 
what one commentator aptly called ``the horrific, predictable 
result of a widely armed citizenry.''
    This epidemic claims nearly 33,000 individuals every year. 
It infects our churches, our schools, our homes. It places our 
police officers into the direct line of fire. It makes our 
citizens afraid.
    But we've not held a single hearing on this topic--not when 
26 children and teachers were murdered at Sandy Hook, not when 
our colleague was shot in Phoenix, and not when the body count 
reached 49 in Orlando.
    Last month, every Democratic Member of this Committee wrote 
to our Chairman Goodlatte with a list of specific policy 
proposals to address this violence, and, to date, I'm sorry to 
say we have received no response.
    I would also like to tell you, Madam Attorney General, that 
we have an answer for the millions of undocumented immigrants 
who came here in search of a better life but who are forced to 
live in the shadows. Some of us have put a great deal of effort 
into antagonizing and vilifying that community, but this 
Committee has offered very few solutions acknowledging that 
these families are here to stay.
    But elections are about choices, Madam Attorney General. 
There are only 3 working days--some count it less--left this 
month, and then we adjourn for 7 weeks. How will my colleagues 
on the other side of the aisle choose to fill that time?
    Today, apparently, Secretary Hillary Clinton's email takes 
precedence over gun violence and civil rights. Let us be clear: 
The criminal investigation is closed. There was no intentional 
wrongdoing. Director Comey, whose reputation for independence 
and integrity is unquestioned, has explained his reasoning in 
great detail.
    If any of my colleagues are not yet convinced, it is 
because they do not want to be convinced. And in their zeal to 
call Secretary Clinton a liar or maybe even a criminal, despite 
the facts and despite the law, I fear we will have missed an 
opportunity to engage with you on more worthy subjects.
    We may also spend time today talking about the alleged 
wrongdoings of Commissioner Koskinen of the Internal Revenue 
Service. Some of my colleagues want to use one of the remaining 
working days before the break to move his impeachment directly 
to the House floor. I hope they do not.
    In many ways, this gesture is totally meaningless. There is 
bipartisan consensus that the Commissioner's critics have not 
proved their case, and there is virtually no chance of a 
conviction in the Senate.
    But I believe that the rush to impeachment, although 
ineffectual, would set a dangerous precedent for the Congress 
and the American people. Once we cross this line, we write a 
new rule: Whatever the merits of the charges, the House may 
impeach an official without due process, without the right to 
counsel, without the right to present evidence to this 
Committee, and without the right to question the evidence 
presented against him.
    Elections are about choices, and here is the choice we face 
as the clock runs down on the 114th Congress: We can spend the 
few days that remain on conspiracy theories and political 
sniping that does little for our constituents but drive them 
further apart from their neighbors, or we can attempt to solve 
even one of the long list of problems facing this country 
today. We should choose to do work--the work we were sent here 
to do--or the public is right to choose somebody else to do it.
    And so I look forward to our conversation today, Madam 
Attorney General Lynch.
    I thank the Chairman, and I yield back.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    And, without objection, all of the Members' opening 
statements will be made a part of the record.
    We welcome our distinguished witness today.
    And, General Lynch, if you would please rise, I will begin 
by swearing you in.
    Do you swear that the testimony that you are about to give 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Attorney General Lynch. I do.
    Mr. Goodlatte. Thank you.
    Let the record reflect that the witness has responded in 
the affirmative.
    Attorney General Loretta Lynch was sworn in as the 83rd 
Attorney General of the United States on April 27, 2015.
    Ms. Lynch began her career in public service by joining the 
United States Attorney's Office for the Eastern District of New 
York. After 9 years, Ms. Lynch was appointed by President Bill 
Clinton to lead that office as United States Attorney, a post 
she held until 2001.
    Ms. Lynch then worked in private practice until 2010, when 
President Obama asked her to resume leadership of the United 
States Attorney's Office in Brooklyn.
    Ms. Lynch is a graduate of Harvard College and Harvard Law 
School.
    General Lynch, welcome. Your entire testimony will be made 
a part of the record, and we ask that you summarize your 
testimony in 5 minutes. Thank you. And you may begin.

TESTIMONY OF THE HONORABLE LORETTA E. LYNCH, ATTORNEY GENERAL, 
              UNITED STATES DEPARTMENT OF JUSTICE

    Attorney General Lynch. Thank you, sir.
    Good morning, Chairman Goodlatte, Ranking Member Conyers, 
and the distinguished Members of this Committee. I'm grateful 
for the opportunity to appear before you today to discuss how 
we can continue working together to ensure the security of our 
Nation and the strength of our communities and the safety of 
our people.
    Now, as we gather here this morning, I know that we are all 
thinking of the two bailiffs who were killed and the sheriff's 
deputy who was wounded in a shooting in a courthouse in 
Michigan yesterday. The Department of Justice stands ready to 
provide whatever help we can to State and local authorities as 
they investigate this heinous crime. And our sincerest 
condolences are with the friends, the colleagues, and the loved 
ones of the devoted public servants that we lost.
    Now, of course, this incident follows on the heels of a 
series of devastating events that rocked our Nation last week: 
the tragic deaths of Alton Sterling in Louisiana and Philando 
Castile in Minnesota and the deplorable murder of five brave 
Dallas police officers--Lorne Ahrens, Michael Krol, Michael 
Smith, Brent Thompson, and Patrick Zamarripa--who were 
protecting a peaceful protest, along with several of their 
comrades who were wounded.
    The Department of Justice, including the FBI, ATF, the U.S. 
Marshals Service, and our U.S. Attorney's Office in the 
Northern District of Texas, is working closely with our State 
and local counterparts, and we will offer any assistance that 
we can as the investigation in Dallas unfolds.
    And, among other resources, we will send assistance to the 
victims and to their families. Our hearts are literally broken 
for the families and loved ones of those we lost in these 
tragic events. And our gratitude goes out to the brave men and 
women who wear the badge, who carry our safety on their 
shoulders and who risk their lives every day to keep us safe.
    As we grapple with the aftermath of these events, the 
Department of Justice will continue to do everything in our 
power to build the bonds of trust and cooperation between law 
enforcement and the communities that we serve. That work has 
never been more difficult nor more important.
    We will continue to offer our State and local partners 
funding, training, technical assistance for critical programs 
as well as for assets like body-worn cameras, deescalation 
training, and education in implicit bias. In fact, in the last 
month, we announced that we would begin providing implicit-bias 
training to Federal law enforcement agents and prosecutors.
    We will continue to promote the recommendations of the 
President's Task Force on 21st Century Policing through 
training and technical assistance. Our Civil Rights Division 
plays a critical role in ensuring constitutional policing and 
accountability and in rebuilding trust where trust has eroded.
    And through our Office of Justice Programs and our Office 
of Community-Oriented Policing Services, we will continue to 
give local departments the tools they need and the training 
they require to come home safely, from funds for bulletproof 
vests to training in officer health, safety, and wellness.
    At the same time that we are working to support police and 
citizens in their efforts to build stronger and more united 
communities, we remain committed to keeping those communities 
safe and secure. Just 1 month ago today, 49 innocent lives were 
taken in an attack on the Pulse nightclub in Orlando, an 
appalling act of terror and of hate that underscored the 
urgency of confronting threats to our Nation wherever they 
emerge and whatever form they take. There is no responsibility 
that this department takes more seriously. We.
    Are moving aggressively against those who seek to receive 
training from or are inspired by foreign violent extremist 
groups. And we've arrested more than 90 individuals since 2013 
for conduct related to foreign-fighter activity and homegrown 
violent extremism.
    And we are working closely with our counterparts abroad to 
pursue terrorists and investigate attacks around the world. As 
the recent incidents in Turkey, Bangladesh, Iraq, and Saudi 
Arabia have reminded us, terror knows no borders. And in the 
face of violent extremism, we must stand with our global 
partners in unity, in readiness, and in resolve.
    Now, I want to close with a comment about the investigation 
of Secretary Clinton's use of a personal email server during 
her time as Secretary of State.
    As you are aware, last week, I met with Director Comey and 
career prosecutors and agents who conducted that investigation. 
I received and accepted their unanimous recommendation that the 
thorough, yearlong investigation be closed and no charges be 
brought against any individuals within the scope of the 
investigation.
    And while I understand that this investigation has 
generated significant public interest, as Attorney General, it 
would be inappropriate for me to comment further on the 
underlying facts of the investigation or the legal basis for 
the team's recommendation. But I can tell you that I am 
extremely proud of the tremendous work of the dedicated 
prosecutors and agents on this matter.
    Thank you for this opportunity to make this opening 
statement.
    [The prepared statement of Attorney General Lynch follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       
                               __________
                               
                               
                               
                               
                               
    Mr. Goodlatte. Thank you, General Lynch.
    We'll now proceed under the 5-minute rule with questions 
for the witnesses, and I'll begin by recognizing myself.
    Before being confirmed as Attorney General in May of last 
year, you were first nominated by President Obama to serve as 
the United States Attorney for the Eastern District of New 
York, and you were originally appointed to the U.S. Attorney 
post in 1999 by former President Bill Clinton.
    The existence of Secretary Clinton's private email server 
was first brought to light in March of last year, 1 month 
before your confirmation as Attorney General. A few months 
after your confirmation, the inspectors general of State and 
National Intelligence requested the Department of Justice 
investigate whether classified information was stored on her 
private email servers. The FBI then opened an investigation 
into the matter.
    Given that she was a political appointee of your current 
boss and, more importantly, the wife of your previous boss, why 
did you not see fit to recuse yourself from the investigation? 
Wouldn't recusal or appointment of a special prosecutor have 
removed any appearance of impropriety given your service during 
Bill Clinton's Presidency?
    Attorney General Lynch. Thank you for the question, Mr. 
Chairman.
    As I've said on several occasions before, when the referral 
came into the Department of Justice, it was received and 
referred to experienced, dedicated career agents and 
prosecutors who handle matters of this type every day with 
independence, with efficiency, with thoroughness, and the 
matter was handled like any other matter.
    It was reviewed through the chain by those independent 
career agents and prosecutors. And, in considering the matter, 
there was no connection, there was no need for recusal or an 
independent prosecutor.
    Mr. Goodlatte. Well----
    Attorney General Lynch. And, as I indicated before, I'm 
incredibly proud of the dedicated work that they did over the 
past year.
    Mr. Goodlatte. Let me follow up on that then.
    Two weeks ago, roughly a year into the FBI's investigation 
and a mere week before Director Comey's announcement, you met 
privately with your former boss, former President Bill Clinton, 
on your plane at the Phoenix airport.
    Why was this meeting, particularly in light of your 
previous appointment by President Clinton, not grounds for 
recusing yourself?
    Attorney General Lynch. With respect to my conversation 
that I had with former President Clinton in Phoenix, it was a 
conversation that was held on the airplane on the tarmac. The 
former President indicated he wanted to say hello, and I agreed 
to say hello, and we had a social conversation.
    Nothing of any relationship to the email investigation was 
discussed, nor were any specific cases or matters before the 
Department of Justice discussed.
    Mr. Goodlatte. We'll have some followup questions to that 
later, but let me turn your attention to Director Comey's 
conclusions on a variety of points.
    Secretary Clinton stated that she never sent or received 
information marked as ``classified'' on her server. Director 
Comey stated that was not true. Do you agree with Director 
Comey?
    Attorney General Lynch. You know, Director Comey has chosen 
to provide great detail into the basis for his recommendations 
that were ultimately provided to me. He's chosen to provide 
detailed statements, and I would refer you to those statements.
    I, as Attorney General, am not able to provide any further 
comment on the facts or the substance of the investigation.
    Mr. Goodlatte. Well, General Lynch, I think you would agree 
that the ultimate responsibility for a prosecutorial decision 
does not rest with the Federal Bureau of Investigation but with 
the Department of Justice, which you head.
    Have you not taken a close look at the work done by 
Director Comey, especially given the extreme national interest 
in this issue, to make a determination, yourself, whether you 
and those working for you agree or disagree with Director 
Comey?
    Attorney General Lynch. As I've indicated, I received the 
recommendation of the team. And that team was composed of 
prosecutors and agents. It was a unanimous recommendation as to 
how to resolve the investigation.
    Mr. Goodlatte. So do you----
    Attorney General Lynch. And the information that they had 
received concluded----
    Mr. Goodlatte. Do you agree with the conclusion?
    Attorney General Lynch. And I accepted that recommendation. 
I saw no reason not to accept it. And, again, I reiterate my 
pride and faith in their work.
    Mr. Goodlatte. Secretary Clinton stated that she did not 
email any classified material, and Director Comey stated there 
was classified material emailed. Do you agree with Director 
Comey's conclusion about that?
    Attorney General Lynch. Again, I would have to refer you to 
Director Comey's statements for the basis for his 
recommendations.
    Mr. Goodlatte. Director Comey stated that there is evidence 
of potential violations of the statutes regarding the handling 
of classified information. Do you agree with Director Comey's 
statement?
    Attorney General Lynch. Again, I would refer you to 
Director Comey for any further explanation as to the basis for 
his recommendations.
    The recommendation that I received from the team, including 
Director Comey----
    Mr. Goodlatte. But, General Lynch----
    Attorney General Lynch [continuing]. Was that the 
investigation be resolved without charges.
    Mr. Goodlatte. General Lynch, Director Comey made a 
recommendation, but he made a recommendation to the Department 
of Justice, which you head, and you would have to come to the 
final conclusion on whether or not to act.
    I would presume that, before you acted, you would look at 
his conclusion to determine whether you agreed with him or not.
    Attorney General Lynch. As I've indicated, I received a 
briefing from the team, which included not just the prosecutors 
but the agents and Director Comey, their unanimous 
recommendation was that the matter be resolved in the way in 
which we've announced, and I accepted that recommendation.
    Mr. Goodlatte. Let me ask you one final question that does 
not regard the specific facts with regard to Secretary Clinton, 
but Director Comey said that there was not clear evidence that 
Secretary Clinton or her colleagues intended to violate laws 
governing the handling of classified information.
    My question for you is, is intent to violate the law a 
requirement under 18 U.S.C. section 793(f)?
    Attorney General Lynch. Well, Congressman, I think the 
statutes that were considered here speak for themselves. To 
answer further would require a discussion of the facts and the 
analysis of this matter, which, as I've indicated, I'm not in a 
position to provide at the time. Again, I refer you to Director 
Comey's discussion for that.
    As I've indicated, the team reviewed this matter, and it 
was a unanimous team decision.
    Mr. Goodlatte. And you made a decision, following their 
recommendation to you, that you were not going to prosecute and 
the matter was closed. Is that correct?
    Attorney General Lynch. I made the decision some time ago 
that I would accept the recommendation of that team and was 
awaiting that recommendation. When I received it, there was no 
basis not to accept it. And, again, I reiterate my pride and 
faith in them.
    Mr. Goodlatte. Well, thank you. I appreciate your faith in 
them. The concern here is in regard to your sworn oath to 
uphold the United States Constitution and the laws thereunder, 
including 18 U.S.C. section 793(f) and 18 U.S.C. section 1924. 
And to conclude that no prosecution would take place without 
examining and drawing conclusions regarding the questions that 
I've just asked does not seem to be a responsible way to uphold 
your constitutionally sworn oath.
    At this time, I would recognize the Ranking Member of the 
Committee, the gentleman from Michigan, Mr. Conyers, for his 
questions.
    Mr. Conyers. Thank you.
    Thank you for being here again, Attorney General, and thank 
you very much for your frank and candid discussion with us that 
is now taking place.
    I'm looking for answers and views of some events that I'm 
going to string together and ask you to discuss as far as you 
can in an appropriate manner.
    Baton Rouge, Louisiana, police shot and killed Alton 
Sterling. Video shows that he was shot while being pinned to 
the ground by two officers.
    Outside of Minneapolis, police shot and killed Philando 
Castile at what should have been a routine traffic stop. He was 
armed, but reports suggest that he repeatedly told police that 
he had a valid permit for the weapon.
    In Dallas, a gunman killed five police officers and wounded 
seven others in what appeared to be a well-planned attack--this 
terrible act in the middle of an otherwise peaceful protest in 
a city that has become a model for community-engaged policing.
    And so I think you're qualified to advise us here, as both 
the chief law enforcement officer in the United States and the 
first African-American woman to hold that post. How can we make 
sense of these events during these trying times, ma'am?
    Attorney General Lynch. Thank you, Congressman, for the 
opportunity to speak on these issues.
    I believe that you have truly outlined the issue of the day 
facing our Nation. And it is my hope that, as we all look at 
these tragic incidents, that we will take the opportunity to 
draw closer to each other, to have the difficult conversations 
about race and policing in this country, involving all sides, 
involving all issues and all points of view.
    I have spent the last year as Attorney General touring this 
great country, meeting specifically on the issue of police and 
community relations. And I have sought out jurisdictions that 
have had extremely troubled relationships but have, in fact, 
made the conscious decision to pull themselves back from that 
brink and develop a positive relationship between the community 
and law enforcement.
    It can be done. I have seen it done. You have cited Dallas 
as one example of a police department that, through its 
community policing efforts, has crafted a strong bond with its 
community so that, when there is tension, there is an outlet, 
there is a way for discussion.
    I believe, Congressman, that the key to many of the 
problems that we face is communication--communication and truly 
listening to one another, listening to individuals who feel for 
whatever reason separated and at a distance from the goals of 
this great country, individuals who feel that they do not have 
an opportunity to fully participate in this great democracy; as 
well as listening to our brave members of law enforcement, who 
talk to me every day with great poignancy about why they joined 
this wonderful profession, their desire to protect, to serve, 
to put young people on the right path, to build a better 
country, and to, in fact, build strong communities because they 
live in those communities.
    All of that must be recognized, as well as the pain of law 
enforcement, who feel themselves under attack as well. By 
recognizing our common humanity, our common loss, and our 
common goals, we can, in fact, work on this difficult problem.
    Mr. Conyers. Thank you for your response.
    I would like to ask you in a friendly way how we can--as a 
Committee, what is it that we can do to address the problem?
    And we seek your friendly advice in that direction because 
we want to work together with all the branches of government, 
and the House Judiciary Committee is in a very unusually 
important position to play an important role in this.
    Attorney General Lynch. Yes. Thank you, Congressman.
    The Department of Justice is actively engaged in working 
with both communities and law enforcement to further these 
discussions, and, of course, efforts in our grant-making arena 
are important there. And we welcome and appreciate the support 
of this Committee and others in making sure the Department's 
grant-making operations are fully funded.
    We also provide a great deal of support for law enforcement 
through training and technical assistance, for example, the 
bulletproof vest program, and our funding for body-worn cameras 
for so many police departments. Again, we thank this Committee 
and so many Members of Congress who have provided bipartisan 
support for those efforts, and we would hope that those efforts 
in funding, in particular, would continue.
    Those are just a few of the examples of ways in which we 
hope to continue to receive support.
    I would also note that the issue of criminal justice reform 
is a larger canvas upon which this conversation is being writ. 
And certainly we support the efforts by so many on this 
Committee and others throughout Congress to push that important 
legislation forward.
    We have provided assistance in terms of many of the details 
that have been raised in the context of that legislation. I 
know this Committee, in particular, has spent so much time and 
effort on that, and we appreciate that and all of the issues 
that have been raised.
    And that is an important way toward dealing with making our 
criminal justice more effective, more efficient, and more fair. 
That, in and of itself, will go a long way toward restoring 
faith and trust in the overall criminal justice system, which 
is also a problem often raised to my attention during my 
travels.
    So the Department looks forward to continuing to support 
those important efforts.
    Mr. Conyers. I am so pleased that you would be with us 
today. And I hope that we can continue this communication, 
because it's very important for all of the citizens in our 
Nation.
    And I thank the Chair.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    The Chair now recognizes the gentleman from Wisconsin, Mr. 
Sensenbrenner, for 5 minutes.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    And thank you, Attorney General Lynch, for being with us 
today.
    You are in charge of the Department of Justice. The buck 
stops with you. And I'm concerned that you keep on saying that 
you have deferred the authority that by law is yours to 
Director Comey.
    Let me give an example. Mr. Comey has said that Secretary 
Clinton was extremely careless in her handling of highly 
classified, very sensitive information. Now, the criminal 
statute uses the word ``gross negligence.'' And I can't for the 
life of me figure out what the difference between ``gross 
negligence'' and ``extremely careless'' is unless one really 
wants to parse some words.
    Now, secondly, the misdemeanor statute does not require 
intent. It's a strict liability statute, and it relates to the 
removal and retention of classified information. So it doesn't 
matter whether Secretary Clinton had the intent to do that or 
not; the fact is that the FBI said that she did it.
    Now, I think that what Director Comey has said is that 
Secretary Clinton's actions essentially meet the definition for 
prosecution under the statute. Why did you defer to Director 
Comey when the responsibility is yours?
    Attorney General Lynch. Thank you, Congressman, for the 
question.
    Let me be clear that my decision was to accept the 
recommendation of the team of agents and investigators who 
worked on this. And these are the career attorneys as well as 
the dedicated investigators, including the FBI Director, who 
worked on this matter for over a year.
    They've reviewed the facts. They followed the facts. They 
looked at the law. They've applied the facts to that law and 
came up with a unanimous recommendation----
    Mr. Sensenbrenner. Well----
    Attorney General Lynch [continuing]. A joint 
recommendation, in effect----
    Mr. Sensenbrenner. Well, I have----
    Attorney General Lynch [continuing]. That was provided to 
me.
    Mr. Sensenbrenner. I have a limited amount of time.
    You know, the fact is that, whether it's extremely careless 
or gross negligence and a strict liability of statute, I think 
that the language of the statute is clear.
    Now, I've noted that the Justice Department over the last 
several years has prosecuted several servicemen for doing the 
exact same thing that Secretary Clinton did and, in one case, 
actually reached a judgment of a court that prohibited that 
serviceman from ever having a security classification again.
    Now, you have a problem, Madam Attorney General, that 
people think that there's a different standard between the 
servicemen and Secretary Clinton and the fact that the language 
is almost synonymous, if not synonymous, saying no prosecution 
of Secretary Clinton and prosecution and conviction of the 
servicemen.
    You have a burden, I think, to convince the American public 
that you don't have a double standard. You're not meeting the 
burden. And how do you plan to change the argument that you 
make to the American public so that they can be convinced that 
the thing was correct and that you made the right decision, 
rather than simply deferring to people in the FBI and the 
prosecutors?
    Attorney General Lynch. Congressman, every case stands on 
its own separate facts and application of those facts to the 
law. So you'd have to refer to the specific facts of the other 
matters that you're referring to.
    With respect to the investigation into the former 
Secretary's handling of classified information, her private 
email system, again, I can tell you and this entire Committee 
and the American people that all of the relevant facts were 
considered, investigated thoroughly, and reviewed by the entire 
team, which, again, is composed of career independent 
investigators as well as lawyers. And their recommendation, 
upon a full and thorough analysis, was that the matter be 
resolved in the way in which it was recommended to me.
    As I've indicated, I determined to accept that 
recommendation and did, in fact, accept that recommendation.
    Mr. Sensenbrenner. One final question. One of the 
servicepeople who was prosecuted, basically he sent an email 
out that his fellow Marines were in danger. And he ended up 
getting prosecuted for warning his fellow Marines that their 
lives may be in danger.
    Now, here in the case of Ms. Clinton, the private email 
arrangement was simply to avoid public scrutiny. So, in terms 
of the intent of Major Jason Brezler and Secretary Clinton, 
one, Major Brezler, was doing it to save his colleagues; the 
other, Secretary Clinton, was to avoid transparency.
    Now, in terms of the bottom line, that's the hoop that you 
have to jump through in order to retain and regain your 
credibility with the American public. I hope that you'll be 
able to do that.
    And I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from New York, Mr. Nadler, for 5 
minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Thank you, Ms. Lynch, for appearing here today and for your 
service as Attorney General.
    I am sure that many of my Republican colleagues will spend 
their time discussing the over-hyped matter concerning 
Secretary Clinton's emails, but I am going to focus instead on 
more important issues facing this country.
    We're all sickened by the killings of Alton Sterling in 
Baton Rouge and Philando Castile outside of St. Paul. According 
to the ACLU, Mr. Castile was the 123rd African-American to be 
killed by law enforcement this year. That is, of course, no 
excuse for last week's vicious murders of five police officers 
in Dallas. But the knowledge that Mr. Sterling's and Mr. 
Castile's deaths come on the heels of a long list of senseless 
killings of Black men, women, and children whose encounters 
with the police might have gone differently had they not been 
Black must spur us to take action.
    ``Black Lives Matter'' is not a hashtag; it is an 
imperative. And I appreciate the work that you are doing and 
your department is doing in this regard, and I hope you'll keep 
us informed on that.
    But I want to go to a different matter, related, 
unfortunately. Exactly 1 month ago today, a lone gunman killed 
49 people and wounded more than 50 others in an LGBT nightclub 
in Orlando.
    Mass shootings are now an all-too-common occurrence in this 
country. In 2016, there were 229 mass shootings, defined as 
shootings in which at least 4 people are shot. As you know, 
every day, on average, nearly 300 Americans are shot in 
murders, assaults, suicide attempts, accidents, and police 
actions. Forty-eight of them are children and teenagers.
    This is a distinctly American problem. More than 33,000 
Americans lose their lives to gun violence each year. In the 
United Kingdom, in 2011, 146 deaths to gun violence; Denmark, 
71; Portugal, 142; Japan, just 30; the United States, 33,000. 
You cannot tell me, no one can tell me, that the American 
people are a thousand times more mentally ill than people in 
these other countries.
    A recent study in the American Journal of Medicine found 
that, compared to 22 other high-income countries, the gun-
related murder rate in the United States is 25 times higher.
    We have held exact--there is an epidemic of gun violence, 
and how has the majority in Congress responded? With emergency 
hearings about Hillary Clinton's and Lois Lerner's emails. We 
have held, of course, zero hearings on gun violence. We have 
passed no bills to address the issue. We have done nothing to 
require universal background checks. We continue to allow 
military-style assault weapons on our streets. We have not even 
prevented those on the no-fly list from purchasing guns.
    That's why I was proud to join John Lewis and nearly the 
entire Democratic Caucus in protesting the Republican Congress' 
abdication on this issue.
    Now, Ms. Lynch, what does the assassination of five Dallas 
police officers last week tell us about the NRA's favorite 
adage, ``The only thing that stops a bad guy with a gun is a 
good guy with a gun''? The police officers, after all, were 
armed. And what about, ``An armed society is a polite 
society''?
    Attorney General Lynch. Well, Congressman, thank you for 
raising this important issue of gun violence in our society.
    I don't have a comment on the NRA's positions or 
statements.
    Mr. Nadler. Well, what about that statement--never mind 
their position, but what do you think of the statement that the 
only thing that stops a bad guy with a gun is a good guy with a 
gun? Is that true? Does it work?
    Attorney General Lynch. Congressman, I think the issue, as 
is usual, doesn't really lend itself well to aphorisms and 
short statements. And it's my hope that the work of many on 
this Committee and, indeed, throughout Congress in having the 
discussion that has begun on this issue will continue so that 
we can, in fact, continue to work on the serious issues of 
access to firearms in our society.
    Earlier this year, I did make several recommendations to 
the White House, which were accepted, for important ways for 
dealing with this issue, ranging from clarifying guidance on 
those who are engaged in the business and therefore must 
provide background checks for purchasers, ranging from 
clarifying rules on acquisitions of certain types of firearms 
and by those in certain business capacities, such as trusts.
    But also, as part of that, a very important part of that 
was a request for additional funding for ATF for more resources 
to deal with the information and the issues arising out of gun 
violence, as well as funding for HHS to deal with the issues of 
mental health that place so many Americans in jeopardy.
    Mr. Nadler. A loophole in Federal law allows the transfer 
of a firearm to anybody after 3 business days, even if a 
background check is not complete. Last year, the FBI concluded 
the suspect in the shooting in Charleston was able to purchase 
a gun through this loophole.
    Should that policy change? Should we hold the transfer of 
firearms until the background check has been completed?
    Attorney General Lynch. Well, Congressman, in order to 
change that rule, it would require congressional action. The 3-
day waiting period is part of congressional action that has 
already been voted on by Congress. And, certainly, it is a fact 
that, with the rise in purchases and the increased use on the 
NICS background system, there is ever more use of that system.
    We are working to improve the NICS system to make it as 
efficient as possible. We've expanded the number of personnel 
working on those background checks. We are working also to 
improve the automated portion of the NICS system so that the 
dealers who go through the system will be able to get 
information more quickly and to be able to respond, either by 
proceeding or denying a sale or in other ways as appropriate.
    So we are working within the system as it is currently 
structured. In order to change that, it would require 
congressional action.
    Mr. Nadler. Thank you.
    My time is expiring, but I wanted to briefly mention one 
more issue. We have been following the Department's review of 
the consent decrees that govern ASCAP and BMI. There are 
reports that the Department is not recommending any changes to 
the consent decrees but is moving forward with an 
interpretation of the decrees requiring these organizations to 
license works on a 100-percent basis instead of the current 
practice of fractional licensing, in conflict with the formal 
opinion of the U.S. Register of Copyrights.
    I have heard from numerous songwriters and constituents 
greatly concerned about the disruption this will cause in the 
industry and to the creative process. Several of the parties 
involved have raised a host of other issues relating to the 
consent decrees, as well.
    Can you clarify for the Committee the status of the 
Department's review of the consent decrees and the process 
moving forward?
    Mr. Goodlatte. The time of the gentleman has expired. The 
witness will be permitted to briefly answer the question.
    Attorney General Lynch. Thank you, Mr. Chairman.
    Thank you, Congressman.
    The Antitrust Division is engaged in a review of the 
consent decree, which I believe dates to 1941. It has been 
utilizing a public comment system. After going through an 
initial round and receiving public comments, another round of 
public comments was also opened. Those comments are still being 
reviewed. Stakeholders are being consulted with.
    And it is my understanding that the Antitrust Division will 
be wrapping up this matter shortly and will be making public 
its findings. And we will, of course, make sure that they're 
made available to Congress. I believe they would be in any 
event provided to you, but we will certainly make sure that 
they are provided to you.
    Mr. Nadler. Thank you very much.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Ohio, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    Madam Attorney General, I think the thing that I find so 
disheartening, so unfortunate, about FBI Director Comey's 
decision not to recommend criminal charges against former 
Secretary of State Hillary Clinton last week was that, for a 
lot of Americans, it looked like we're seeing a double 
standard, unequal treatment under the law.
    Under the facts of the case as laid out by Director Comey, 
virtually anybody else, I think most Americans think, including 
myself, there would have been charges brought for a crime 
against virtually anybody else in this country. But the 
politically connected Hillary Clinton, well, we won't charge 
her.
    I mean, look what Comey laid out. It's already been laid 
out to some degree, but I think it warrants doing it again. He 
found that, despite the fact that Hillary claimed that she'd 
never sent or received classified information over a private 
email, she'd actually sent 110 of them, over 100 of them, and 8 
of those were determined to have been Top Secret at the time 
that they were sent.
    Now, I assume that, based upon the way you've answered some 
of my colleague's questions prior to this, you're not going to 
acknowledge what I think virtually every other American 
believes, even her supporters, and that's to at least 
acknowledge, as Director Comey did, that she lied. Would you 
respond?
    Attorney General Lynch. Congressman, with respect to the 
Director's statements, as I've indicated, he's provided really 
unprecedented access into his views of the matter, and I would 
refer you to them.
    I understand the issue that you raise, obviously, is one 
involving perceptions as to whether or not charges would have 
been brought in some other situation. And, again, I can only 
refer you back to the Director's statements, where he chose to 
outline the fact that no other cases similar to this had, in 
fact, been brought.
    Mr. Chabot. Let me go back to what Mr. Sensenbrenner 
referred to. I think it's one of the great mysteries of this 
case, and that's why extreme carelessness--apparently not in 
his mind, and you accepted it, so I guess apparently not in 
your mind--did not constitute gross negligence.
    Now, I'm an attorney. I practiced 16 years before coming 
here. And I've been on this Committee for 20 years now, so even 
though I'm not actually practicing law right now, I've been 
doing this type of thing for a long time. And I, for the life 
of me, don't know what the difference between ``extreme 
carelessness'' and ``gross negligence'' is. He said he found 
one but apparently not the other.
    Could you shed some light for me and perhaps anybody else 
in this room or that may ultimately watch this, what is the 
difference between the two?
    Attorney General Lynch. Well, Congressman, again, I'm not 
going to further explain the Director's comments, as he has, I 
believe, explained them.
    But I will say, when people have asked--and I understand 
your question to be the meaning of ``gross negligence"--one 
always, as you know, refer to the statute itself, relevant 
cases, and then, of course, it is a very fact-specific inquiry.
    And since to go further would go into the facts of this 
case, I'm not able to go further at this time.
    Mr. Chabot. All right. Okay.
    Attorney General Lynch. But we always start with the 
statute. We start with relevant caselaw. We start with 
legislative history into the----
    Mr. Chabot. Okay. As----
    Attorney General Lynch [continuing]. Determination of what 
Congress meant.
    Mr. Chabot. Also, as Mr. Sensenbrenner mentioned, I've got 
limited time, as well. So since you're not going to answer that 
question, let me give you one final question here.
    Let me go back to this double-standard thing that I 
mentioned before. I couldn't help being reminded when this 
whole thing--especially over the last week, of something that I 
was involved in in this very Committee 18 years ago. And, at 
the time, it was Hillary Clinton's husband, Bill Clinton, who 
was in trouble.
    He was accused of sexually harassing a number of women, and 
then he lied under oath about it, committed perjury. He'd been 
asked if there were other women. There was a civil lawsuit 
brought, and oftentimes when you have a lawsuit like that, you 
go to other people: Did you sexually--were you aggressive with 
people who were under your jurisdiction or that you had some 
power over? Did you ever do that? No, he never did.
    Well, then a young intern came forward that was working 
under him at the White House, and she had physical proof. He 
denied it, but there was physical proof. I won't go into 
exactly what that was, but there was proof about that. So he 
was pretty much caught up in this. He lied, committed perjury.
    That's why articles of impeachment were voted affirmatively 
out of this Committee and then in the full House. And then he 
went for trial in the Senate. I know a lot about that because 
they picked 13 Members to be the prosecutors of that case, the 
House managers, and I was one of them, under Henry Hyde, who of 
course has gone on.
    My principal focus at that trial was the topic of perjury, 
the elements of it, its history, what you had to prove. And in 
my argument with the Senate, my argument about that was that we 
had hundreds of people all over the currently who were in jail, 
behind bars, for perjury, and the President of the United 
States shouldn't be above the law.
    Well, the ultimate vote was 50 to remove him, 50 to stay, 
so he remained President.
    But I would just conclude by saying that every American, 
including the President of the United States, including a 
candidate for the highest office in our land, ought to be 
treated equally under the law. And I think, in this case, I 
think it's a travesty, because I don't think Hillary Clinton 
has been treated like any other American would've been treated 
under the same circumstances.
    And I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from California, Ms. Lofgren, for 5 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, General Lynch, for taking the time to be 
here with us today.
    You know, I get a sense that really we're in this political 
season, and there is so much disappointment on the Republican 
side in the country that they couldn't obviate the election 
through the legal process. You know, despite the fact that most 
of us--I mean, in the Congress--we use personal emails that are 
not official. I do, and I know many Members of this Committee 
on both sides of the aisle do that.
    And Secretary Clinton, like her predecessor before her, 
General Colin Powell, used a private email system for 
convenience. She has expressed the view that that was a 
mistake. I don't know that Colin Powell has.
    Certainly, we know from press reports that the official 
State Department email account was the subject of the worst-
ever cyber intrusion of any Federal agency. What we don't know 
is whether her communications on a private email were actually 
more secure than had she used the State Department email 
system.
    But after over a year and $30 million or more across 
various agencies and congressional Committees investigating 
this matter, your agency has finally made the determination to 
follow the FBI's recommendation not to prosecute. And I think, 
you know, to some extent, we're beating a dead horse here for 
political reasons.
    And I think it's important because there are--to use your 
time here for other things. There are a lot of things that need 
attention that we're not giving attention to. And so I'd like 
to raise the issue--it may seem arcane, but it is really 
important--of the backlog in immigration courts.
    You know, we have had a massive expansion of immigration 
enforcement from 2003 to 2016. We increased the U.S. Border 
Patrol and Protection and ICE from $9.1 billion to $20.1 
billion. That's a massive expansion.
    But, at the same time, we increased, in your department, 
the Office of Immigration Review and the immigration courts 
$199 million to $426 billion. We have a massive backlog right 
now. In Los Angeles, the backlog is 806 days to hear a matter 
in immigration court. In Chicago, it's 915 days; Denver, 983 
days; Phoenix, 884 days. This is, I mean, really, years and 
years to hear your matter in court.
    And I'm wondering if you have--obviously, we need 
additional resources, but what are your thoughts of managing 
this just unconscionable workload for the immigration courts?
    Attorney General Lynch. Thank you, Congressman, for raising 
that important issue.
    Certainly, with respect to the workload of the Executive 
Office for Immigration Review, their workload has increased 
significantly over the past several years due to the influx of 
those seeking to enter our country. We saw this problem begin 
several years ago, as you have noted. The backlog of more than 
2 or 3 years is something that we had been noting and certainly 
back in 2014, EOIR decided to try and handle this matter by 
prioritizing certain types of cases and trying to work through 
that backlog.
    Particularly, along our southwest border--you mentioned Los 
Angeles. You mentioned Phoenix. Although Chicago reflects an 
influx of individuals who have chosen to move further north. 
But particularly along our southwest border, we have been 
trying to work on those backlogs. The additional resources we 
have with the assistance of Congress--and I thank the Members 
of this Committee and other Members for their support--we have 
been able to add additional resources to the immigration 
courts.
    We have, as far as 2016, hired 36 new immigration judges. 
We hired 20 new judges in 2015. And we have another 
approximately 100 judges going through the hiring process now.
    It is our hope that this will assist us in not only 
handling the priority issues, but dealing with the backlog that 
often results from the other areas that we have to pull 
resources from. We are always looking for ways to make the 
system more efficient, to make the system deal with the 
important issues raised in immigration courts, to protect our 
borders as well as to provide due process to those who are in 
immigration court.
    Ms. Lofgren. Thank you, General.
    I would just like to note, Mr. Chairman, that our colleague 
Sheila Jackson Lee is not here because she is attending the 
memorial in Dallas. And I wanted to make sure that Members knew 
that it is not for lack of interest but because of that 
obligation.
    I thank you, General Lynch for your testimony.
    And I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
recognizes the gentleman from California, Mr. Issa, for 5 
minutes.
    Mr. Issa. Thank you.
    General Lynch, you and I worked together on a myriad of 
issues, and I have great respect for many parts of the work you 
do and the way you do it. So I'm going to take a tack that 
maybe is more appropriate to my own district and to the men and 
women there who are asking certain questions. And I will run 
you through some quick questions, and it is really for them to 
understand. You are obviously a skilled attorney. You took an 
oath. You are under a penalty of perjury as you speak today. 
You prepared for today so that you would be able to answer some 
of the critical questions, including, obviously, the ones you 
have been asked so far. Is that correct?
    Attorney General Lynch. I try and be responsive to the 
Committee's questions, and I appreciate the information that 
staffers provide about what's of interest to the Committee so 
that we can have the information for you.
    Mr. Issa. So, in that preparation--and you have got my old 
friend Peter Kadzik behind you--you prepared to answer 
questions more or less in about four ways: yes; no; I don't 
know or I can't answer; or, in some cases, some combination of 
that. That's pretty much how you answer here is affirmatively 
yes, affirmatively no, or these shades of gray in between, 
Correct?
    Attorney General Lynch. Congressman, I'm not going to go 
into the internal discussions I have with staff.
    Mr. Issa. No, no, I'm not asking for the internal, but the 
character of the question.
    Attorney General Lynch. And I would not characterize my 
responses in that way.
    Mr. Issa. So far today, you have rarely said absolutely yes 
or absolutely no, correct? You've mostly talked in terms of ``I 
can't answer that'' or ``it's not appropriate'' or ``see the 
FBI Director.'' And so, in light of that, and this is really a 
question of, what do I tell the marines, the sailors, the Army 
personnel in my district, the veterans, the contractors, all of 
those who work for the government with classified information? 
Former Secretary of State in an unambiguous way said repeatedly 
both under oath and to the public, time and time again: ``I did 
not send or receive any information marked classified.'' And 
you are aware of that, that she had definitively said this 
repeatedly, Right?
    Attorney General Lynch. I believe her statements are on the 
record and I defer you to that.
    Mr. Issa. And I have referred to that. She unambiguously 
said something which was not true, according to the FBI 
Director. So when you send and receive documents that are 
marked classified clearly--and according to her statement, 300 
people have seen her emails. Some portion of those people saw 
the ones that said secret, top secret, confidential, whatever. 
None of them are charged.
    What do I say to the tens of thousands of people that live 
and work in my district that work for the Federal Government, 
including more than 47,000 marines? What do I say when, in 
fact, saying something that isn't true, handling classified 
information in an extremely careless way has no criminal 
ramifications? What do I say to them? How do I reconcile the 
fact that they know that their friends and colleagues have been 
prosecuted or fired for doing less in the past?
    Attorney General Lynch. Congressman, I can't speak to any 
cases you may be referring to involving friends or colleagues. 
Again, I would refer you to the description that Director 
Comey----
    Mr. Issa. No, I appreciate that----
    Attorney General Lynch [continuing]. Provided about----
    Mr. Issa [continuing]. Madam General, but I'm going to ask 
you a question.
    Attorney General Lynch. The fact that there are no other 
cases that follow this similar fact pattern. That is what I 
think we focus on.
    Mr. Issa. Okay, let me go through----
    Attorney General Lynch. Every case is different.
    Mr. Issa. Every case is different.
    Attorney General Lynch. Every case has to be handled in the 
same way. Every individual----
    Mr. Issa. Okay, so there will be some cases----
    Attorney General Lynch [continuing]. Whether they are a 
former Secretary or anyone else----
    Mr. Issa. Madam General, I have very limited time.
    Attorney General Lynch [continuing]. Has to be reviewed 
with the facts and the law there.
    Mr. Issa. General Lynch, you keep mentioning this 
professional team of career professionals. Were there any 
political appointees on that team, any people who, in fact, did 
not work for the State Department--or did not work for the U.S. 
Attorney's Office prior to President Obama coming into office?
    Attorney General Lynch. Well, my understanding, again, with 
respect to the team, typically, we don't go into the 
composition of it. It was led by our National Security 
Division, and everyone on the team was a career individual.
    Mr. Issa. Again, I will ask the question with specificity. 
I'm not asking for names. Was there at least one person who was 
politically appointed that was on that team?
    Attorney General Lynch. The investigative team was composed 
of career prosecutors and seasoned agents.
    Mr. Issa. The question is, was there at least one that did 
not work a career, that was, in fact, an appointee, either 
confirmed or unconfirmed?
    Attorney General Lynch. Congressman, I have replied to you 
as to the composition of the team that all of them----
    Mr. Issa. Okay. So your answer is no, there were no 
political appointees.
    Attorney General Lynch. All of them were career lawyers as 
well as seasoned investigators.
    Mr. Issa. Okay. I will take that as a no because that's the 
only way I can interpret what you keep repeating. So, last but 
not least, the American people are told that these documents 
were not a crime to carelessly deal with. Should I find a way 
to make sure that those thousands of documents are made public 
so the American people can evaluate just how insignificant they 
are or how President Obama said, ``There is classified and then 
there's classified''?
    Are these documents documents that could be easily made 
available to the public, or are they too sensitive to be made 
to the public today?
    Attorney General Lynch. Congressman, you may take the 
appropriate steps in terms of reviewing anything, and you may 
rank request for that, and we will work to accommodate you with 
respect to that. I don't have an answer for you beyond that.
    Mr. Issa. So today, you could not characterize whether any 
or all of those documents would have to be retained privately 
because they are too sensitive to be made public?
    Mr. Goodlatte. The time of the gentleman has expired. The 
witness will be permitted to answer the question.
    Attorney General Lynch. Thank you, Mr. Chairman.
    With respect to the handling of any of the documents or 
emails in this matter, because they involve another agency, we 
would have to work with the other agency. We always work with 
the agency that is termed the owner of the information. So, on 
behalf of the Department of Justice, I would not be able to 
give you an answer at this time as to those documents because 
it would involve other agencies.
    Mr. Issa. Thank you, Mr. Chairman. I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Tennessee, Mr. Cohen, for 5 
minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    Madam Attorney General Lynch, when you appeared last time 
before this Committee, I brought up the case of Darrius 
Stewart. Darrius Stewart as was a young man, 19 years old, who 
was shot to death by a Memphis police officer. He was a 
passenger in a car. The officer stopped the car for a headlight 
violation and ran a check on the passenger, end up getting in 
the backseat. Officer shot him, killed him.
    Our local prosecutor asked the grand jury to indict for 
manslaughter, but the grand jury didn't for some reason. I 
asked the Department of Justice to investigate, and I'm 
grateful for that. We are eager to know the results of your 
investigation. We need to know if there are any civil rights 
violations. Can you please tell us when we might expect any 
results in that case? I read today in the Times about the 
Garner case. I know it is difficult, but this case is one that 
is in Memphis with Darrius Stewart.
    Attorney General Lynch. Yes, thank you for raising this 
important issue. The matter is still under review, so I'm not 
able to give you either a result or a timetable at this time. 
But, of course, we will work to keep you informed.
    Mr. Cohen. Thank you very much. Last week, we saw more 
disturbing videos of police shooting of African-Americans, and 
we saw police officers killed in Dallas. And that was dreadful. 
The other side has made a point, my friends, to say people 
should know that nobody is above the law and all people are 
treated equally. Unfortunately, what we have seen is that 
African-Americans are not treated equally when it comes to 
deadly force and police officers in this country. And that's a 
more chilling reality than anything else that's been brought up 
here today. People's lives have been taken. This is a great 
problem. Black lives matter.
    Congressman Lacy Clay and I put forward a bill last year, 
the Police Training and Independent Review Act, H.R. 2302, to 
address two of the major issues that have been identified as 
necessary to help improve the relationship of police and 
citizens. The bill would withhold a portion of Federal funding 
unless police are trained on a range of important issues like 
racial and ethnic bias and cultural diversity. I know the DOJ 
recently announced it would train all its office agents to 
recognize implicit bias, so I know you are aware of the need of 
training.
    Our bill would also withhold a portion of Federal funding, 
unless police shootings that result in a death or injury are 
investigated and, if necessary, prosecuted independently. 
Asking a local prosecutor to investigate the same law 
enforcement agency they work with and provide them with 
witnesses is implicitly wrong. Like Caesar's wife, an 
individual should be a prosecutor beyond the appearance of 
impropriety. If a prosecutor does everything right, the action 
can still appear biased.
    If we are serious about restoring the sense of trust that 
we need to have with our citizenry, we need to eliminate this 
conflict of interest. As I know, as you've mentioned, a key 
part of President Obama's Task Force on 21st Century Policing 
calls for independent prosecutors. Campaign Zero, gaining a lot 
of credibility, also has called for the passage of this act. 
Congressman Clay and I have seen a surge of support. We now 
have 77 cosponsors. It has been endorsed by an unlikely a team 
maybe as the NAACP and the Chicago Tribune.
    Do you think that additional training for police and the 
use of independent prosecutors would help reduce violence 
between police and civilians and help restore a sense of trust 
in law enforcement?
    Attorney General Lynch. Well, thank you for raising this 
important issue, Congressman. I think that the issue of the 
training that we at the Department of Justice provide for law 
enforcement as well as the training generated in the field is 
of utmost importance. And I will tell you that as I have, in 
fact, traveled the country on my community policing tour 
highlighting departments that are working on this very issue, 
I've seen some outstanding examples, in particular, of de-
escalation training using various scenarios to start, 
literally, with the mindset of the officer and how they respond 
to certain situations.
    I have also been extremely encouraged by seeing law 
enforcement comment on many of the recent incidents that have 
been captured on video and talk about how training would or 
would not relate to those specific incidents. And I've been 
incredibly heartened by the growing sense of importance this 
issue has taken on within law enforcement itself. We have seen 
a number of, as I mentioned, of very, very positive programs 
involving training. We have seen, as I mentioned, not just the 
de-escalation but also training in the issues about the 
definitions of excessive force, the legal standards for 
excessive force. I have seen programs that break that down for 
officers, where we have seen----
    Mr. Cohen. My time is about to expire----
    Attorney General Lynch [continuing]. Results in those 
communities.
    Mr. Cohen. So do you think training is something--
additional training would be important?
    Attorney General Lynch. It is key.
    Mr. Cohen. And would independent prosecutors be a good 
thing?
    Attorney General Lynch. I believe it depends upon the 
nature of the office that would be looking into the matter. I 
believe that you would need individuals who have experience in 
dealing with complicated cases, who have experience in dealing 
with forensic evidence. And, certainly, you would want those 
offices, wherever they be located, to have that kind of 
expertise at their hands as well.
    Mr. Cohen. And let me close, Mr. Chairman, with one other 
fact. I don't know if you are aware, but in Memphis, a group, 
partially Black Lives Matter, had a protest march on Sunday. 
They interfered with traffic, made their demonstration on I-40 
at the Hernando de Soto Bridge crossing the river. Our interim 
Police Director Rallings marched arm-in-arm with them, saw to 
it that there was no violence, no arrests, no shootings, no use 
of force. He showed a kind of policing we need in this country 
where both the protesters and all of the citizenry and the 
police saw this man as a leader, a hero, and somebody who kept 
the calm and the peace in Memphis Tennessee. Thank you.
    Mr. Goodlatte. The time of the gentleman has expired, but 
the witness will be permitted to respond if she chooses to do 
so.
    Attorney General Lynch. Just to acknowledge, indeed, the 
strong leadership of the Memphis Police chief, which I have 
seen replicated in departments across the country, including 
particularly in Dallas.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Virginia, Mr. Forbes for 5 minutes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, Madam Attorney General, thank you for being here today 
and for responding to our questions.
    Madam Chairman--I mean, Madam Attorney General, when 
Director Comey was here, he was very forthcoming and candid in 
answering his questions with specificity about Secretary 
Clinton, and he did not refuse to answer any of those questions 
based on the fact that there was some legal prohibition that 
kept him from doing it.
    Today, you have indicated several times that you wouldn't 
respond to some of those questions with specificity. Is there 
any legal prohibition that you have that Director Comey did not 
have that prohibits you from answering those questions with 
some degree of specificity?
    Attorney General Lynch. Thank you for the opportunity to 
speak to that, Congressman. I think it's important to note that 
the Director and I had very different roles in this 
investigation and, therefore, very different amounts of 
information about this information--this investigation. I am 
speaking about the information that I received, which, again, 
as I've noted, was the team recommendation. Director Comey was 
speaking from his position as someone who was more directly 
involved in the investigation.
    Mr. Forbes. I understand that you may have different 
information. My question, though, is, are there any legal 
prohibitions on you that Director Comey did not have?
    Attorney General Lynch. Well, as I've indicated, it would 
not be appropriate in my role to discuss the specific facts and 
the law.
    Mr. Forbes. Is the legal prohibition against that other 
than the fact that you just don't have the same knowledge about 
the case that Director Comey had?
    Attorney General Lynch. We typically actually do not 
provide the level of detail that Director Comey did. He chose 
to provide that level of information and detail.
    Mr. Forbes. Is there any legal prohibition, or is that just 
a choice that you make in not disclosing that information?
    Attorney General Lynch. Well, as indicated, we, obviously, 
are not allowed to discuss certain types of information, for 
example, grand jury information in any matter.
    Mr. Forbes. I know, but we are not talking grand jury 
information here, are we?
    What I want to know is--tell me, is there a legal reason 
that prohibits you from giving us information, or is that just 
a choice you have made?
    Attorney General Lynch. Congressman, as I've indicated, the 
Director and I had very different roles in this investigation. 
So his level of detail is significantly different from mine, 
and I would not be able to provide you with that same level of 
detail.
    Mr. Forbes. Because you don't have the information, not 
because there's a legal prohibition.
    Attorney General Lynch. In addition to that, in part of my 
role as Attorney General, I would not be going into these 
discussions typically. We have taken the role--taken the step 
of providing----
    Mr. Forbes. Madam Attorney General, I'm running out of 
time. I just----
    Attorney General Lynch [continuing]. More information on 
this matter than on others.
    Mr. Forbes [continuing]. Need to know if there is a legal 
prohibition that prohibits you from disclosing information to 
this Committee, or is that a choice you have made?
    Attorney General Lynch. It would depend upon the nature of 
the information.
    Mr. Forbes. The questions which have been----
    Attorney General Lynch. Certainly, there would be.
    Mr. Forbes [continuing]. Asked that you've had, is there 
any legal prohibition that would prohibit you from giving the 
same information that Director Comey has given?
    Attorney General Lynch. Well, with respect to the source of 
that information, if it came from the grand jury, that would be 
a legal prohibition.
    Mr. Forbes. So let the record----
    Attorney General Lynch. With respect to opinions about the 
matter of law----
    Mr. Forbes [continuing]. State that there is no legal----
    Attorney General Lynch [continuing]. That's a different 
issue.
    Mr. Forbes [continuing]. Prohibition that can be cited 
here.
    On June 27, the Supreme Court of the United States gave 
your department a rather stellar rebuke in your prosecution of 
Governor Bob McDonnell.
    Having looked at that and the basis--that, essentially, 
your department launched everything you had against the 
Republican Governor, who everyone agreed had violated no State 
law. They took a Federal law--and you had cited looking at 
statute, relevant caselaw, and history. There was no relevant 
caselaw to suggest that setting up a meeting constituted a 
crime; no history, statutory history, that suggested it was a 
crime. And yet your department put everything it had in 
prosecuting that Governor.
    Having looked at what the Supreme Court has now said, do 
you believe that prosecution was a mistake?
    Attorney General Lynch. Certainly, I believe that the 
prosecutors who worked on that matter investigated it, 
presented it to a grand jury, and received an indictment. We, 
of course, as presented in our papers before the Supreme 
Court----
    Mr. Forbes. But they made a choice to do that, a choice 
which----
    Attorney General Lynch [continuing]. Have made a different 
argument.
    Mr. Forbes [continuing]. You've not made in Secretary 
Clinton's case. Can you tell us now, looking at that and the 
way you interpreted that statute, was that a mistake?
    Attorney General Lynch. Congressman, with respect to the 
investigation of the former Governor of Virginia, I don't have 
a comment on that. We have accepted the results of the Supreme 
Court----
    Mr. Forbes. Not because you don't have a legal prohibition. 
Simply because you refuse to comment.
    Attorney General Lynch [continuing]. And will, of course, 
be reviewing the case in light of that.
    Mr. Forbes. Then my final question then, as time is running 
out, is, when you look at a Governor of Virginia that you 
launched everything this department had against to destroy him 
and to prosecute him, can you tell me the Federal nexus you had 
in that case and compare that to the Federal nexus against 
Secretary Clinton and national security of this country, which 
you refused to bring to a grand jury or for an indictment, to 
see if, in fact, one is justified?
    Attorney General Lynch. Congressman, I don't have a comment 
on the McDonnell case except to refer you to the pleadings in 
that for a discussion of the law there.
    Mr. Forbes. Can you compare the Federal nexus between the 
two cases for us, please?
    Attorney General Lynch. Congressman, I don't have a 
comparison between those two cases for you.
    Mr. Forbes. And that's rather disappointing because 
national security of the country is rather important to the 
country.
    With that, Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Georgia, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Attorney General Lynch, for being 
here today.
    And I think Americans see the duplicitousness of the 
arguments that have been made by Republicans here on this 
panel.
    First, they question you about why you did not recuse 
yourself from the Hillary Clinton email investigation decision 
not to prosecute. And then, on the other hand, they criticize 
you for relying upon the recommendation, the unanimous 
recommendation, of career professional investigators and 
prosecutors at both the FBI and the Department of Justice who 
made the decision and then recommended to you that Hillary 
Clinton not be prosecuted.
    And they take issue with these things, and then they bring 
back some 20-year-old salacious accusations against former 
President Bill Clinton. I think we've reached a low point on 
this Committee because we're talking about these things at the 
same moment that Americans are focused on the out-of-control 
gun violence in this country.
    The chickens have indeed come back home to roost as a 
result of 20 years of NRA control of decisionmaking about 
firearms here in this Congress. Absolutely no action by 
Congress to restrain the flow of weapons of war onto the 
streets of America, weapons of war that are producing mass 
casualties, one incident after the other, with increasing 
regularity here in America.
    Americans get it, but my colleagues on the other side of 
the aisle don't. They're just tone deaf. And they insist on 
chasing rabbits down holes by trying to make some hay out of 
something that is over with, this controversy about emails from 
Hillary Clinton. There is absolutely no evidence of any 
criminal activity.
    But yet, as we approach the Republican convention to be 
held next week--where the candidate that they're going to 
nominate has been a tremendously divisive figure in polarizing 
this Nation, such that we can't do any work here in Congress.
    And so I think the people looking at this hearing are just 
simply dejected. This is really a spectacle, as we get ready in 
Congress to leave for 7 weeks of vacation. The American people 
don't get 7 weeks of vacation, and I know you don't in your 
job. And we appreciate the job that you have done.
    Can you tell me, General Lynch, whether or not, with 
respect to the Orlando mass murder, 49 people, innocent people, 
killed at the hand of a deranged gunman wielding an assault 
weapon, can you tell us whether or not you found any evidence 
that the gunman used any encrypted messaging to prepare for his 
attack? And have you faced any roadblocks related to accessing 
the gunman's social media outreach, be it encrypted or 
otherwise?
    Attorney General Lynch. Well, Congressman, thank you for 
raising those important issues. And, of course, it was exactly 
1 month ago today that those 49 innocent lives were taken from 
us so brutally. And I remember visiting Orlando and speaking 
with many of the victims' families, and their loss is still so 
incredibly close and fresh and painful.
    With respect to the investigation, we are proceeding. We 
have gotten great cooperation from all of the law enforcement 
agencies in central Florida who have worked on this case, from 
first responders through the police department, still helping 
with the investigation. All the Federal agencies have come 
together.
    We are still reviewing a vast amount of evidence, so I'm 
not able to provide insight into whether or not we have come 
across encryption at this time. I will say that we are moving 
forward with the investigation. We certainly are not 
encountering any difficulties with the teamwork on the ground. 
Everyone is committed to trying to determine what led this 
individual to take this heinous act.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Texas, Mr. Smith, 
for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Madam Attorney General, I think you would agree that 
justice needs to be impartial, and the American people need to 
be reassured that the justice system is not rigged. And so I'd 
like to ask you a couple of questions about conversations you 
may or may not have had with Bill Clinton and Hillary Clinton.
    And the first is, have you had any conversations with 
either individual about the email investigation since you 
became Attorney General in April 2015?
    Attorney General Lynch. Congressman, I have had no 
conversations about the email investigation with either of the 
Clintons since the investigation began or at any point in time.
    Mr. Smith. Okay. And an investigation preceded your being 
appointed Attorney General. So you had no conversations 
whatsoever on the subject.
    Attorney General Lynch. Well, the investigation may--I 
believe the referral may have come in right after I became 
Attorney General. But I've had no conversations about Mrs. 
Clinton's email server at any point in time with either her or 
former President Clinton.
    Mr. Smith. Okay. And have you had any conversation with 
either individual about your possibly serving in a Hillary 
Clinton administration?
    Attorney General Lynch. No, I've had no conversations with 
either individual--I've had no conversations with former 
Secretary Clinton on any topic at all. And in my conversation 
with the former President, there was no conversation on that 
nature at all.
    Mr. Smith. Okay. Thank you.
    Let me go to a different subject, and this is back to the 
FBI investigation, though. The usual practice in such an 
investigation is to leave the decision on whether or not to 
recommend prosecution to the Attorney General. Did you suggest 
to Director Comey, directly or indirectly, that he make the 
decision rather than you?
    Attorney General Lynch. Well, Congressman, with respect to 
the usual process, it is, in fact, the way in which most cases 
are handled that the team of career investigators or 
prosecutors make a recommendation and go forward with an 
action. I can also tell you that----
    Mr. Smith. Did you lead anybody to think that you would 
prefer that Director Comey make the decision not to prosecute 
rather than you?
    Attorney General Lynch. I'm sorry, sir, I couldn't hear the 
beginning of your question. I apologize for that.
    Mr. Smith. Okay. Let me--I'll speak more loudly.
    Did you make any suggestion to Director Comey, directly or 
indirectly, that he should be the one to decide whether or not 
to prosecute rather than you, which is traditionally the case?
    Attorney General Lynch. No, sir. I made no--I had no 
discussions with the Director on that point, nor had I made any 
decision as to that point.
    Mr. Smith. And you say you had no discussions. When I say 
``directly or indirectly,'' I mean through associates or anyone 
else.
    Attorney General Lynch. That is correct.
    Mr. Smith. Okay.
    Attorney General Lynch. And what I would say, though, is 
that, as I indicated before, the process that we followed in 
this case was, in fact, a very common process. I chose to make 
it more public because I wanted to make it clear that there was 
no inappropriate influence on the investigation.
    Mr. Smith. Do you agree with Director Comey that Mrs. 
Clinton violated the Federal Records Act?
    Attorney General Lynch. I actually don't recall Director 
Comey speaking on that point. I'd have to go back and check. So 
I don't have a comment on that.
    Mr. Smith. Okay. Several newspapers reported that he said 
that Mrs. Clinton did violate the Federal Records Act, and you 
don't have any opinion on that?
    Attorney General Lynch. You know, I--again, I don't recall 
him speaking directly to that, but, again, he could have. I 
just don't recall him speaking directly to that.
    And, at this point, again, I think that, with respect to 
what was reviewed in the investigation about the handling of 
the emails, we heard the basis of his recommendation, and, in 
fact, the team came to a similar conclusion.
    Mr. Smith. Let me ask you for your opinion. Do you feel 
that she violated the Federal Records Act?
    Attorney General Lynch. I don't believe--I don't know if 
that was under the purview of the investigation. It's not 
something--I don't believe--I don't know if that was under the 
purview of the investigation at this point. As I said before, I 
don't recall a specific opinion on that.
    Mr. Smith. Okay.
    Okay. Thank you very much.
    Thank you, Mr. Chairman. I'll yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from California, Ms. Chu, for 5 
minutes.
    Ms. Chu. Yes. Attorney General, first, I'd like to state my 
great concerns regarding the DOJ's decision to force 
songwriters and music publishers into 100-percent licensing. I 
understand this would require ASCAP and BMI to license songs 
for songwriters that they do not represent, which poses 
concerns of how and if a writer will be compensated for their 
work.
    I believe this ruling will disrupt the ecosystem that 
songwriters operate under and hurt creativity by discouraging 
them to collaborate with others belonging to a different PRO in 
the future. This decision is also contrary to the formal 
opinion that was released by the Copyright Office.
    I urge you to conduct an independent review of this ruling 
that was issued by the Antitrust Division. The livelihoods of 
thousands of songwriters depend on it.
    And now I'd like to address a completely different topic. 
Attorney General, when you testified before the Judiciary 
Committee last fall, I brought up the issue of Chinese-
Americans who were wrongfully arrested as spies for China and 
their lives ruined, only to have all the charges dropped. These 
string of incidents have had a chilling effect in the Asian-
American community, where scientists, engineers, and Federal 
employees now live in fear that they may be targeted next.
    During last year's hearing, two of the accused, Sherry Chen 
and Xiaoxing Xi, were in fact with me in the audience.
    To recount one story, Dr. Xiaoxing Xi, professor in the 
physics department of Temple University, woke up at the break 
of dawn with almost a dozen FBI agents at his home. Guns were 
pointed at him as he was handcuffed and arrested in front of 
his wife, two young daughters, and neighbors. Because of 
allegations that he was a spy for China, his name was put in 
the newspapers, his reputation was dragged through the mud, and 
he had to resign from his position as chairman of the 
department.
    But then, after enduring a lengthy investigation and 
emotional trauma, all of the charges against him were dropped. 
It turns out that the technology that the government thought 
was being shared with China was actually publicly available 
technology, not the pocket heater in question. And yet, despite 
having all this information at their disposal, the 
investigators in this case got the facts completely wrong.
    Similar wrongful arrests took place with Guoqing Cao, Shuyu 
Li, Sherry Chen, all of whom are American citizens.
    I bring up these cases again because they have been 
officially closed since we last spoke and yet we still have no 
answers. In fact, when I met with some of your staff last week, 
they informed me that race, ethnicity, and national origin did 
not play a role in either of these cases. But we still lack any 
evidence that this is true. That's why we and national Asian-
American groups have asked repeatedly for an independent 
investigation with letters and meetings, and we've been doing 
it for a year.
    So, once again, I'd like to know if there are any plans to 
open up an independent investigation to determine what went 
wrong in these cases.
    Attorney General Lynch. Well, Congresswoman, thank you for 
raising both of these important issues.
    With respect to the ASCAP review--and that is, the review 
of the ASCAP/BMI--there actually has been no ruling issued as 
of yet. There have been significant consultations with 
stakeholders, as well as receipt of a great number of public 
comments on the issue, many of them raising the issues that you 
have discussed here at the hearing. And so I thank you for 
keeping those before us as well.
    My understanding is that the Antitrust Division anticipates 
concluding the review as well as those discussions within the 
next few months and issuing a ruling at that time. And we will 
of course make sure that you will receive that, as certainly 
all the Members of the Committee. But there has been no ruling 
at this time.
    With respect to the other issue you've raised with respect 
to those particular cases that were brought and then dismissed, 
race and ethnicity do not have a role in the Department's 
prosecutions. It is something that we reject. We focus on the 
facts; we follow the law. But we do continue our 
investigations, and where we find that, in fact, our initial 
review may not have been accurate, it is incumbent upon to us 
dismiss those cases, as happened in this case.
    I'm glad that you were able to have the meeting with 
representatives from the Department most recently. And I can 
assure you that the review that was done----
    Ms. Chu. Okay.
    Attorney General Lynch [continuing]. Was of the cases that 
were raised to determine what led to their initial charging and 
dismissal.
    Ms. Chu. I do have a followup question that I want to get 
in.
    Most recently, I hear you are implementing a new implicit-
bias training program for DOJ investigators and prosecutors. 
Can you describe this program? And will this new bias training 
ensure that Asian-Americans are not wrongly profiled and 
targeted for economic espionage? And will the content of this 
training be made available to the public?
    Attorney General Lynch. We are still--we are beginning the 
implicit-bias training. It will be a requirement for all the 
Department of Justice law enforcement officers and attorneys. 
And that is the field as well as main Justice, those who are 
working on cases.
    We have found in our work with working with local law 
enforcement that often implicit-bias training is something that 
is well-received and has been helpful in helping departments 
understand the point of view of other individuals, the 
perceptions of many of their actions, as well as implicit 
biases that people bring to their actions that may cause 
collateral consequences and unexpected results.
    And we felt that it was important that we also participate 
in something that we were advocating throughout the law 
enforcement community, to make our law enforcement as strong 
and efficient and fair as possible.
    It will be discussing--it will not be limited to any 
particular ethnicity, of course, but it will certainly focus on 
how we handle race and ethnicity in our review of matters. So, 
while it will not be limited to any one ethnicity, it will 
cover more broadly the issue of how we perceive anyone who may 
be different from us.
    We feel that this will, frankly, make our law enforcement 
agencies stronger, more efficient, and help keep them devoted 
to the goals of the Department of Justice.
    Ms. Chu. And will the content be made available?
    Mr. Goodlatte. The time of the gentlewoman has expired. The 
witness will be permitted to answer the question.
    Attorney General Lynch. Thank you, Mr. Chairman.
    At this point in time, I don't have that information for 
you, but I'm happy to have our staffs consult on that point.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    Thank you, General Lynch, for your testimony today.
    I'd ask first that, in that happenstance meeting on the 
tarmac in Phoenix, was there any discussion that might have 
implied anything with regard to the investigations of the 
Clintons, be it the Clinton Foundation or the investigation of 
the FBI into Hillary Clinton's emails?
    Attorney General Lynch. No, sir, there was not.
    Mr. King. Zero implications.
    Attorney General Lynch. There was nothing about any 
investigations or any specific cases or any of the other 
matters that you have mentioned in your question. It was a 
purely social----
    Mr. King. And when did you learn about that meeting?
    Attorney General Lynch. As I was getting ready to leave the 
plane. I had landed, and I was getting ready to disembark from 
the plane. I learned that the former President wanted to say 
hello, and I agreed to say hello to him.
    Mr. King. Was there any staff in that meeting, or was it 
the two of you alone?
    Attorney General Lynch. Well, my husband was with me during 
our conversations. I believe there were also two members of the 
flight crew on board the plane, to whom the former President 
said hello.
    Mr. King. Okay. Thank you.
    Are you aware that Hillary Clinton has repeatedly lied to 
the public about her emails and her email servers in public 
forums and, say, campaign speeches and interviews with the 
press? Are you aware of that?
    Attorney General Lynch. I have no comment on a 
characterization of any candidate and their statements.
    Mr. King. I would point out that most of the rest of 
America is aware of that, and including her political 
supporters, who will continually say that they will support her 
even though she lied publicly.
    I would also point out, October 9, 2015, Barack Obama 
stated that Hillary Clinton did not endanger national security. 
The whole issue was ``ginned up by Republicans.'' That was 
October 9, 2015. On October 10, he stated that Hillary Clinton 
was ``careless but had not been intentionally endangering 
national security.''
    It's curious to me that that turns out to be the very word 
that the lack of prosecution hinges upon, is intent, even 
though the statute doesn't require intent. And when you see a 
President publicly make a statement like that, are you 
concerned that it might influence the decision on prosecution?
    Attorney General Lynch. Well, as--I've been asked about 
that statement. As I've clarified before, the Department of 
Justice had no input into it. And, certainly, my view has 
always been that the team working on this did their work 
independently and without any political influence.
    Mr. King. From the information that's been made available 
to you, do you believe that Hillary Clinton knowingly removed 
classified information?
    Attorney General Lynch. I don't have a comment on or a 
characterization----
    Mr. King. I understand that. And, also----
    Attorney General Lynch. And that was part of----
    Mr. King [continuing]. Do you believe that she had intent 
to keep unauthorized information in an unauthorized location? 
And you have no comment on that?
    Attorney General Lynch. No. I'd would refer you to my 
statement on the----
    Mr. King. Uh-huh.
    Attorney General Lynch [continuing]. Recommendation that I 
accepted.
    Mr. King. And I understand that.
    Now, the hinge of this thing, according to Mr. 
Sensenbrenner and I'll say myself, the definition of the word 
``gross negligence,'' in that Director Comey used the term 
``extreme carelessness,'' and Mr. Sensenbrenner asked you to 
define the difference between that and ``gross negligence.''
    Do you find it ironic that the last examination of a 
Clinton in this room, the previous one, Bill Clinton--excuse 
me, before this Judiciary Committee, not technically in this 
room--hinged on the meaning of the word ``is.'' It looks to me 
like this investigation is hinging upon the meaning of 
``extreme carelessness'' versus ``gross negligence.''
    Do you actually see that there's a difference between those 
two words?
    Attorney General Lynch. Congressman, I always start with 
the statute with any review that is being done on any matter by 
the Department of Justice. And we look to the statute, 
legislative history, caselaw, and we look at the facts as 
they're developed by an investigation and apply them to that 
statute and to that standard. And that is what the team did in 
this case, and that was, I believe, the basis for their 
recommendation.
    Mr. King. Director Comey stated in his press conference 
that they didn't have evidence that the classified information 
or the Top Secret information had been hacked by a foreign 
actor. But neither did he state that they had any evidence that 
it had not been hacked, and he stated also it'd be unlikely 
that we would know if it had been.
    Now, under Snowden, we have to operate as if any 
information he had access to is now in the possession of 
foreign hostile actors. Would you believe that's the same thing 
with any information that Hillary Clinton had on her private 
server, we have to act as if it were in the hands of a hostile 
foreign actor?
    Attorney General Lynch. I don't have a comment on a 
characterization or comparison of Mr. Snowden and Mrs. Clinton.
    Mr. King. Well, just answer the part about Hillary Clinton 
then, please, General Lynch.
    Attorney General Lynch. You had asked me----
    Mr. King. The information that was on her server, that we 
have to presume now that it's in the hands of hostile foreign 
actors. Do we have to handle it as if that's the case? And, if 
so, didn't that endanger our national security?
    Attorney General Lynch. Congressman, I think that you'd 
have to look at the facts of the matter and determine whether 
or not there had been access. And, as the Director indicated, I 
believe he's responded to that, as to whether or not----
    Mr. King. And it is a very serious matter, and it's been 
covered up, General Lynch.
    I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Florida, Mr. Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    And, General Lynch, thank you for being here. Thank you for 
your thoughtful and patient responses to my colleagues' 
questions.
    In the brief time that I have today, I'd like to discuss 
recent reports of some disturbing and dangerous and inhumane 
prisoner transport conditions in this country.
    Just last week, The New York Times, in a big story that 
they put together with The Marshall Project, shed light on 
abuses that harm thousands of prisoners who were loaded into 
vans by private contractors on a pay-per-mile basis. It's the 
same way we pay for shipping cargo in this country, and any 
retailer will tell you that it pays to ship in bulk. But we're 
not talking about pallets of laundry detergent; we're talking 
about human beings, we're talking about American citizens. And 
no matter their crime, they deserve better than the way that 
these transport services are treating them.
    The story that ran in the July 6 New York Times recounts 
the horrific deaths of several individuals--one of them, Steven 
Galack from south Florida. And I'll just quote briefly from the 
story.
    ``In July 2012, Steven Galack, the former owner of a home 
remodeling business, was living in Florida when he was arrested 
on an out-of-State warrant for failing to pay child support. 
Mr. Galack, 46, had come to the end of a long downward spiral, 
overcoming a painkiller addiction, only to struggle with 
crippling anxiety. Now, he was to be driven more than a 
thousand miles to Butler County, Ohio, where his ex-wife and 
three children lived, to face a judge.
    ``Like dozens of States and countless localities, Butler 
County outsources the long-distance transport of suspects and 
fugitives. He was loaded into a van run by Prisoner 
Transportation Services of America, the Nations largest for-
profit extradition company.
    ``Crammed around him were 10 other people, both men and 
women, all handcuffed and shackled at the waist and ankles. 
They sat tightly packed on seats inside a cage with no way to 
lie down to sleep. The air conditioning faltered amid 90-degree 
heat. Mr. Galack soon grew delusional, keeping everyone awake 
with a barrage of chatter and odd behavior. On the third day,'' 
General Lynch, ``the van stopped in Georgia, and one of two 
guards onboard gave a directive to the prisoners. 'Only body 
shots,' one prisoner said she heard the guard say. The others 
began to stomp on Mr. Galack, two prisoners said.
    ``The guards said later in depositions they had first 
noticed his slumped, bloody body more than 70 miles later, in 
Tennessee. A homicide investigation lasted less than a day, and 
the van continued in its journey. The cause of death was found 
to be undetermined.
    `` 'This is,' '' his ex-wife said, `` 'someone's brother, 
father, and it's like nobody even cared.' "
    So, General Lynch, paying transport contractors on a per-
mile--prisoner-per-mile basis incentivizes overcrowding, 
overheated van cargo holds, taking shortcuts on officer 
training, skipping stops to rest drivers and to relieve 
passengers. Each investment into humane conditions and 
treatment of prisoners cuts into the profits of these 
companies. And despite a Federal law that passed in 2000, known 
as Jeanna's Act, these private transport companies operate with 
virtually no oversight.
    Prisoners have died from untreated medical emergencies 
because officers have no medical training or just don't seem to 
care. Prisoners have been assaulted and raped while cramped 
into the back of a van, just feet from the transport officers 
who are responsible for their safety. And reports show that 
prisoners often do not receive adequate food and water, the 
vans are unsanitary, and prisoners do not get opportunities to 
use the bathroom.
    In addition to these poor conditions, the transport system 
is vulnerable to prisoner escapes.
    Now, no American should be subject to this treatment, but 
I'd like to state clearly for the record that many of the 
people transported in the system have not even been convicted 
of any crime.
    Jeanna's Act set out minimum standards for transport 
companies, including guard training, the proper use of 
restraints, CPR, navigation, defensive driving, maximum driving 
times, et cetera, but in spite of these minimum standards, the 
companies are not being held to account.
    And since the passage of Jeanna's Act, it's been reported 
that at least 56 prisoners have escaped for-profit transport 
vehicles; 16 committed new crimes while on the run; and, in 
what is most shocking of all, the act has been enforced by the 
Department of Justice one time in 16 years--one time in 16 
years.
    So, General Lynch, I'd just ask, what else can be done for 
us to focus on an issue that we were so concerned about here in 
Congress 16 years ago that we passed legislation? But that 
legislation seemingly goes unnoticed or certainly unenforced.
    And I'll finish just by pointing out a quote from the chief 
operating officer of one of these companies, who said, ``Well, 
it's regulated by the Department of Justice, but I've never 
seen anybody come out to actually check on us.''
    What can we do to address this problem that's resulting in 
putting--the result of which is that our communities are made 
less safe and these prisoners are treated inhumanely?
    Attorney General Lynch. Well, Congressman, you raise an 
extremely important issue, because, of course, the treatment of 
all those within the criminal justice system at every point 
throughout that system has to be humane and fair regardless of 
their status, whether they are convicted or not. And, 
certainly, pretrial is just as important a situation and a 
status as well.
    I'm not familiar with the situation that you have 
encountered, but I am happy to review that. And I would hope 
that our staffs could continue the discussion about this issue.
    Mr. Deutch. I would be grateful----
    Mr. Goodlatte. Would the gentleman yield?
    Mr. Deutch. Yeah, I would be happy to yield.
    Mr. Goodlatte. I thank the gentleman for raising the issue.
    And if the General would look into this in-depth and report 
back to the Committee in addition to Mr. Deutch, we would very 
much require that.
    Attorney General Lynch. Thank you, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Chairman. I yield back.
    Attorney General Lynch. Thank you, Congressman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Madam Attorney General, for coming today.
    Madam Attorney General, you mentioned earlier that your 
first consideration in any case was to start with the statute. 
And I know there are a lot of questions already that's 
addressed this issue, but I want to read you 18 U.S.C. 1924, 
where it says any Federal official who ``becomes possessed of 
documents or materials containing classified information of the 
United States and knowingly removes such documents or materials 
without authority and with the intent to retain such documents 
or material in an unauthorized location shall be fined under 
this title or imprisoned for not more than 1 year or both.''
    Now, this statute doesn't require an intent to profit or to 
harm the United States or otherwise act in a manner disloyal to 
the United States. It simply requires intent to retain 
classified documents at an unauthorized location, something FBI 
Director Comey's own comments suggest was the case with Hillary 
Clinton's investigation.
    Can you walk us through your reasoning on your 
nonprosecution decision in the Clinton case based on this 
particular statute?
    Attorney General Lynch. Congressman, with respect to the 
reasoning for my recommendation, as I have stated before, I had 
committed to and did accept the recommendations of the team 
working on this matter.
    And, as I indicated in my opening statement, it would not 
be appropriate for me, as Attorney General, to go into that 
level of analysis. I believe the FBI Director has chosen to 
make his recommendations and analysis public in order to afford 
more clarity into that.
    But the team did review the relevant laws, the relevant 
facts that the investigation revealed. They relied solely on 
that and not on anything else in making that recommendation, 
which was unanimous, to me.
    Mr. Franks. Well, Madam Chair--Madam Attorney General, you 
know, the FBI doesn't give an opinion or decide if an 
individual will be prosecuted. You do.
    But many Members already--I can see where this is going. 
Far more capable Members of this Committee have summarily 
failed, as I just did, to get you to answer even the most 
reasonable and relevant question. Consequently, I'm going to 
simply capitulate to your prodigious dissimulation skills and 
suspend the remainder of my questions.
    Instead, I just want to remind all of us that in a republic 
like America, which is fundamentally predicated on the rule of 
law and the equality of us all under the rule of law, there are 
few things that break faith with America and the American 
people and undermine their trust in their government more than 
witnessing the highest law enforcement officer in the land 
blatantly ignoring the crystal-clear meaning and equal 
protection and equal enforcement of the laws as they are 
written.
    And, Madam Attorney General, I think such an abrogation of 
your official duties and responsibilities--it's not just a 
matter of what will be written writ large in the annals of your 
own legacy. It's something, rather, that goes to the very heart 
of the rule of law in a republic that so many lying out in 
Arlington National Cemetery have died to keep. And I hope, 
going forward, if there are other investigations into the false 
testimony given to the Congress by Mrs. Clinton, that that will 
be at least part of your consideration.
    And, with that, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Illinois, Mr. Gutierrez, for 5 
minutes.
    Mr. Gutierrez. Welcome, Attorney General.
    Unfortunately, this morning, while America sees children 
that go to school, elementary school children, murdered in 
their classrooms, we read and see young people murdered, 
dancing on a Saturday night, we see five brave, courageous 
police officers murdered in Dallas, Texas, that's not 
important. The security of the American people and their safety 
in their schools and in their place of play and on their 
streets is not important.
    What's important? Let's go talk about the emails once 
again. And let's bring into question the integrity, the 
independence of the U.S. Justice Department. First they did it 
to the FBI Director last week, and today they're doing it to 
you.
    So it's clear where they want to go. They want to talk 
about regaining credibility and integrity. I want to talk about 
safety and regaining the trust that the American people need to 
have in their law enforcement and you as the chief law 
enforcement officer of the Nation, how it is that we bridge 
that gap, given the series of deaths, tragic deaths, that we 
have seen of young Black men at the hands of police officers.
    I think that's an important issue we should be talking 
about. I think making sure that my children can go to school, 
they can go to play, or they can go and protest, and that, yes, 
police officers in this Nation that are brave and courageous 
should be able to go home, too, after they've served the 
American people--I want to talk about how it is we make that 
safer instead of talking about, as they refer to her, Hillary. 
They didn't say the former First Lady, the former Secretary of 
State--Hillary. Because that's what they want to do, minimize 
this.
    Then they take us all the way back to Bill Clinton, 19 
years ago, and they ask you about a case that they prosecuted 
that they lost. I would've thought I'd bring up a case that I 
won if I was going to talk to the chief law enforcement officer 
of the United States of America.
    If I wanted to have some credibility, I'm going to talk 
about--then they talk about that you lost the case, yes, 
against the Virginia Governor that took a $6,500 watch, $15,000 
in catering, $15,000 in a Goodman Bergdorf--$25,000 in 
flights--yeah, oh, hundreds of thousands of dollars for the 
Governor of Virginia. Why'd you bring that case?
    Thank you. That's what we need. Because what happens in 
America is people don't trust the system. And they're not going 
to trust the system any more today, because people are saying 
to themselves, God, I don't feel safe.
    So, having said that, I want to ask you--because I know 
they're all smiling over there, but let them smile at this. 
Kevin McCarthy, their leader that appoints most of them to 
their leadership positions, said, ``Everybody thought Hillary 
Clinton was unbeatable, right? But we put together a Benghazi 
special Committee, a Select Committee. What are her numbers 
today? Her numbers are dropping.'' Their leader. And that's 
what they're continuing to do today instead of keeping the 
American people safe--safe--in every aspect of their lives.
    So I just want to say to you, Attorney General, I think 
it's regrettable that we have a hearing--that we have all of 
these issues that we confront as a Nation.
    And so I just want to say--you said, rather, the answer 
must be action, peace, calm, collaborative action. You said we 
must find a difficult way forward in finding a path. You said 
we have to stand together to support one another. We will work 
to seek ways with local officials and residents and law 
enforcement officers alike.
    So my question to you is--I saw a group of Chicago police 
officers yesterday for lunch. And nobody has been stronger 
about making sure that they're accountable for their actions 
than I have, but I've got to tell you, my heart went out for 
them yesterday.
    So how are we going to bring the thousands of Chicago men 
and women who serve in the Chicago Police Department--brave, 
courageous men and women, dedicated public servants--how are we 
going to bring them together with the millions of American 
citizens that they are sworn to serve and protect? How are you 
and I going to work together?
    I've invited you to come with me, along with Robin Kelly, 
to come and discuss Laquan McDonald in our neighborhoods with 
our people so that we can make our police stronger, so that we 
can make the people stronger. Will you accept that invitation 
to come?
    I don't want to talk about the elections. I want to talk 
about how it is I take brave men and women in Chicago that 
serve in our police department and the millions of American 
citizens and have them work together. Can we do that?
    Attorney General Lynch. Well, thank you for raising this 
important issue, and I thank you again for the invitation.
    With respect to the Chicago Police Department, we find 
that--we are, of course, working on a pattern and practice 
investigation involving them. And what I will say is that an 
important part of all of our pattern and practice 
investigations are the involvement of the officers. We focus on 
things like the training they receive and the training that 
they need. We focus on the omissions and lapses that we see in 
community connections and the bridge-building tools that they 
need.
    So they are a vital part of our efforts to provide 
assistance and training and to, in fact, strengthen that 
department so that those bridges of trust can begin to be 
rebuilt----
    Mr. Gutierrez. And I just--because my time is up. Thank 
you. But, you know, Congresswoman Bass and I, we went out with 
the protesters when they came out last week, and you know what 
they yelled back at us? They said, ``Do your job.'' I want them 
to know we're doing our job.
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Gutierrez. Come and visit with us in Chicago. Laquan 
McDonald deserves that. The people--the Chicago police deserve 
that. The people--won't you please accept our invitation so 
that we can engage in that dialogue and hopefully have positive 
impact across the Nation.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Texas, Mr. Gohmert, 
for 5 minutes.
    Mr. Gohmert. Thank you, sir.
    Thank you, Attorney General Lynch. I appreciate your being 
here.
    I cannot let the statement of my colleague go unrebutted. 
To say the death of five police officers that just happened and 
that we on this side of the aisle think that's not important is 
an outrage. It is simply an outrage.
    I won't say that, actually, if my colleague had his way, 
then everybody would be as disarmed around the country as they 
are in Chicago and in Washington, D.C., and we would be losing 
thousands more of precious Black lives in America.
    But we're here in the wake of five police officers being 
killed, and that is a huge deal. And having spent much of my 
adult career working with law enforcement, it is a huge deal to 
me. And I know, from the law enforcement officers I talk to, 
they want to make sure that others are not above the law.
    Now, Chairman Goodlatte had asked you about the 
recommendation, and you talked about the briefing team, and you 
said you saw no reason not to accept the recommendation of the 
team.
    How much time did you spend reading the recorded testimony 
of Hillary Clinton from that 3\1/2\-hour interview?
    Attorney General Lynch. Congressman, I'm not going to go 
into the particulars of my briefing, except to say that----
    Mr. Gohmert. No, this is just your own personal work. Did 
you go through in detail all of the statements she made in that 
3\1/2\-hour interview?
    Attorney General Lynch. Congressman, as I've indicated 
previously, my role that I had decided earlier was that I would 
be speaking and meeting with the team who had done that 
substantive, in-depth work for over a year, that had worked on 
this matter, that had compared the facts----
    Mr. Gohmert. Now, you've said that several times, Attorney 
General, and I don't have enough time to have you keep 
repeating that four more times.
    But you--when Chairman Goodlatte asked you about the 
statute and whether it includes the term ``gross negligence,'' 
you made an improper statement. You said discussion of the 
statute would require discussion of the facts. That's not true.
    You know, from my years of judging on the bench, your 
comment that discussion of the statute would require discussion 
of the facts, when he asked you about an element that's 
contained in the statute, Attorney General, that really sounds 
like an answer somebody would give who hadn't read the statute 
and was looking for a dodge to avoid talking about a statute 
with which they're not familiar.
    You are aware--and this doesn't require any discussion of 
any facts whatsoever--but you are aware that in 18 U.S.C. 
793(f), ``gross negligence'' is an element of the offense, are 
you not?
    Attorney General Lynch. Congressman, I refer you to my 
statement that you just commented on with respect----
    Mr. Gohmert. Okay. Well, if you're not going to answer the 
question, I'm afraid you might be reinforcing it.
    Attorney General Lynch. The question to me was the meaning 
of a phrase----
    Mr. Gohmert. Now, you said there was no basis not to accept 
the recommendation of our team. But you've given no indication 
whatsoever that you did any independent reading of the evidence 
of the statements. Was Hillary Clinton's statement even 
recorded?
    Attorney General Lynch. Congressman, I'm not going to 
discuss the specifics of that. I believe the FBI has provided 
extraordinary clarity and insight into that----
    Mr. Gohmert. Okay. Well, if you're not going to----
    Attorney General Lynch [continuing]. And that information 
is before you.
    Mr. Gohmert [continuing]. Answer the question, let's move 
on.
    But I find it extraordinary that after a 3\1/2\-hour 
interview so quickly a recommendation is made. So there are 
inquiring minds that are very intelligent that have said, wow, 
it almost sounds like on that plane somebody said, ``Look, if 
you'd just tell Hillary to come in. We're wrapping up, but 
we've got to be able to say that we interviewed her. It won't 
be recorded, so she'll be good.'' It sounded like it was a 
check-the-box.
    You're familiar with Scooter Libby's case and Martha 
Stewart's case, correct? You remember they were prosecuted for 
making a false statement when the FBI and the Justice 
Department couldn't make the case they started out. You 
remember that?
    Attorney General Lynch. One in New York and I believe one 
here.
    Mr. Gohmert. Right.
    Attorney General Lynch. ``Here'' meaning D.C.
    Mr. Gohmert. So that's a pretty common instrument to be 
used. If someone makes a statement somewhere inconsistent in 
what they tell the FBI, that itself becomes a matter of 
prosecution. And I am shocked. I thought it would be weeks 
before an answer could be made. But it looks like, to do a 3\1/
2\-hour interview--you haven't reviewed the facts. You've 
reviewed the team recommendation.
    And I would just encourage you, Attorney General, your oath 
was not to follow the recommendation of some team. Your oath is 
your own responsibility to our Constitution and those that are 
working under you.
    My time's expired.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from California, Ms. Bass, for 5 
minutes.
    Ms. Bass. Thank you, Mr. Chair.
    Attorney General Lynch, thank you for joining us today.
    My questions are going to focus on your role in addressing 
the serious situations faced by African-American men and women 
currently being discussed across our Nation.
    Cell phone cameras and now live streaming have provided a 
new platform to highlight issues that have been known by the 
African-American community--and, I might add, in California, 
the Latino community--for decades.
    In the last few weeks, we have witnessed one image after 
another depicting the worst and the best in police conduct. I 
might also add that, in the last week, three young Latinos were 
killed at the hands of law enforcement.
    The best of law enforcement was demonstrated in Dallas by 
how they protected peaceful protesters and in Inglewood, 
California, near my district. Then there is the worst, with the 
most recent examples, of course, in Baton Rouge and St. Paul.
    While Mike Brown and Eric Garner are household names, 
Alexia Christian, Meagan Hockaday, and Myra Hall are unknown to 
the general public. I hold in my hand and I will ask permission 
to submit for the record a Say Her Name brief written by the 
African American Policy Forum. It stems from the #SayHerName 
campaign, which was formed to name and give voice to Black 
women and girls who have lost their lives at the hands of law 
enforcement. This 45-page report goes through numerous examples 
of girls and women who have died, African-American girls and 
women.
    My question to you is, has the Department of Justice begun 
to carefully review cases of alleged law enforcement misconduct 
related to the treatment of African-American women and girls?
    Attorney General Lynch. Well, thank you for raising this 
important issue. Certainly, the treatment of women and focusing 
on minority women--African-American, Hispanic women, and other 
minority women--throughout the criminal justice system is an 
issue of great importance to me, ranging from their encounters 
with the police throughout their time in the system.
    We take, of course, any death in custody seriously, any 
death resulting from an interaction with law enforcement 
seriously and are always reviewing such matters. They are often 
brought to our attention, either directly to the Civil Rights 
Division or to our U.S. Attorney's offices, and we, of course, 
review those matters.
    The other area that we're working on is working with law 
enforcement leaders, as well as academics, to ensure that we 
have better data on all of the encounters between civilians and 
law enforcement so that we can, in fact, have the true picture 
on what happens to our women, our girls, our sons, our 
brothers, to all individuals who encounter law enforcement. And 
it is----
    Ms. Bass. Let me actually interrupt you on that so I don't 
run out of time.
    In terms of a death in custody, I wanted to give you an 
example of a situation that happened in Los Angeles, where a 
woman was in custody, she was in jail, and she called her 
mother, and she told her mother to meet her in court the next 
day. Shortly after that, she died mysteriously. It was said 
that she committed suicide shortly after telling her mother to 
meet her in court the next day. Her mother goes to court and 
sits there the entire day, and they never tell her mother that 
her daughter has died.
    So the question is, what's the current system to notify 
family members about the death of a family member in custody?
    Attorney General Lynch. Well, that system----
    Ms. Bass. And I have one more question for you after that.
    Attorney General Lynch. Then let me just be brief then.
    That system would vary depending upon the jurisdiction, 
whether it--and who, in fact, has jurisdiction or authority 
over the jail or other institution where someone is being held.
    Ms. Bass. Okay. Let me get my last question in.
    Across our country, communities have come together to speak 
up against the violent deaths at the hands of law enforcement. 
The marches actually reflect the diversity of America and 
remind us all that this is not just a concern for African-
Americans but for our Nation as a whole. It's interesting to me 
that the thousands of young White protestors that chant in 
solidarity ``Black lives matter'' are never acknowledged.
    Black Lives Matter activists across the country are 
beginning to document and complain about increased surveillance 
and harassment by law enforcement not during protests but 
before and after as they go about their daily lives.
    Are you aware of any increased surveillance of Black Lives 
Matter activists? And, if so, why? And under what circumstances 
would the Department of Justice become involved in the 
surveillance of a group like Black Lives Matter?
    Attorney General Lynch. Congresswoman, I'm actually not 
aware of that issue being brought to my attention. Again, it 
sounds like it may be an issue in a particular jurisdiction----
    Ms. Bass. It's across several cities, by the way. And I can 
follow up with you and give you the specific information.
    Attorney General Lynch. Yes, if our staffs could speak, I 
would appreciate that. If we could get more information from 
you, I would appreciate that.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Ohio, Mr. Jordan, and would ask the gentleman if he would yield 
very briefly to the Chair.
    I thank the gentleman for yielding.
    General Lynch, we are now about halfway through the Members 
of this Committee asking questions, and your refusal to answer 
questions regarding one of the most important investigations of 
someone who seeks to serve in the highest office in this land 
is an abdication of your responsibility.
    This is a very important issue of whether or not the 
Justice Department is going to uphold the rule of law in this 
country, and I hope that with the questions that will be 
forthcoming now you will be more forthcoming with answers.
    Thank you.
    The gentleman is recognized.
    Mr. Jordan. Thank you, Mr. Chairman.
    General Lynch, who made the decision that no charges would 
be brought against Secretary Clinton?
    Attorney General Lynch. Congressman, with respect to that 
decision, I had determined that I would accept the 
recommendation of the team and made that known----
    Mr. Jordan. So who ultimately made the decision?
    Attorney General Lynch. I made that known, and then when 
the recommendation was given to me, I did accept that 
recommendation.
    Mr. Jordan. So did you ultimately make that decision, or 
did Director Comey?
    Attorney General Lynch. Well, Director Comey was part of 
the team.
    Mr. Jordan. Who ultimately made the decision?
    Attorney General Lynch. So the team consisted of 
prosecutors and agents that did include Director Comey, but 
there were others----
    Mr. Jordan. I want to know where the buck stops. Who made 
the decision?
    Attorney General Lynch. As I indicated before, I had 
previously decided that I would accept their recommendation 
when they made it to me----
    Mr. Jordan. So are you saying you----
    Attorney General Lynch [continuing]. And I did accept their 
recommendation.
    Mr. Jordan [continuing]. Made the decision? Are you saying 
you made the decision?
    Attorney General Lynch. I had previously indicated I would 
accept their recommendation, and I----
    Mr. Jordan. Okay. So let's just run through that. On July 
1, you said, ``I'll accept the recommendations of the FBI.'' 
Mr. Comey didn't announce his decision until July 5, and he 
said that he didn't talk to you beforehand.
    Now, I assume it's not unusual for the Attorney General to 
accept the recommendations of the FBI and the career 
prosecutors and the team, as you've so often cited. What is 
unusual is to make a big, bold, public announcement that you're 
going to do it. It's one thing to do it. I assume it happens 
all the time. It's another thing to announce ahead of time 
you're going to do it.
    So here's what I'm having trouble with and my guess is a 
lot of people are having trouble with. If you commit and 
announce that you will abide by the FBI's decision before they 
even finish their investigation, then how can you also say 
ultimately it was your decision?
    Attorney General Lynch. Well, Congressman, as I've 
indicated, I accepted their recommendation. I had indicated----
    Mr. Jordan. So are you----
    Attorney General Lynch [continuing]. Before that I would 
accept----
    Mr. Jordan. What I want to know is, was it not your 
decision or was it your decision? Because it seems to me you 
can't have it both ways. You can't say, I'm the Attorney 
General and I decide, but yet I'm going to take their 
recommendations even before they make their recommendations.
    Attorney General Lynch. I had indicated that I would be 
accepting their recommendation because I wanted to make it 
clear that any conversation that I might have had with the 
former President would have no impact on the team or their 
review----
    Mr. Jordan. Ever do this before?
    Attorney General Lynch [continuing]. Or the investigation.
    Mr. Jordan. Did you ever do this before?
    Attorney General Lynch. I have not had occasion to do that 
before, but I felt----
    Mr. Jordan. You've never----
    Attorney General Lynch [continuing]. It was important in 
this case.
    Mr. Jordan. So you've never announced before an 
investigation is done that whatever they come up with--maybe 
they're going to screw it up, who knows--you've never announced 
before that whatever they recommend I'm going to follow. It's 
never happened before.
    Attorney General Lynch. I thought it was important in this 
case to do so.
    Mr. Jordan. So this is the first time you've ever done 
that, announce beforehand, I don't care what their 
recommendations are, I'm gonna--by golly, I'm gonna follow 
them.
    Attorney General Lynch. I have complete faith in the 
judgment and the hard work of the team.
    Mr. Jordan. I'm not questioning whether you have faith in 
them. I have--I think probably a lot of people have faith in 
the FBI in a lot of situations. I don't know that they agree 
with them here, but I think they have faith in them a lot of 
times.
    What I'm questioning is why announce ahead of time, when 
you've never done it before, why announce ahead of time, I'm 
going to follow their recommendations even though I don't know 
what they are, and still claim you're the ultimate decider?
    Attorney General Lynch. Well, as I indicated, I felt it was 
important to express my role in the investigation, to clarify 
my role, because I was concerned that the conversation I had 
with the former President would make people think that there 
could be some influence there.
    Mr. Jordan. So that was the trigger.
    Attorney General Lynch. That, in my view, was something 
that needed to be clarified. I felt that people needed to 
understand my role in----
    Mr. Jordan. So you've never done this before, but when you 
have a conversation with the former President, the husband of 
the subject of an ongoing investigation, and you have that 
conversation before they've interviewed the subject and before 
they've reached their recommendations and finished their 
investigation, that's what triggered you to do this thing 
you've never done before, which is announce, I don't care what 
they recommend, I'm gonna follow it.
    Attorney General Lynch. My concern was that the 
conversation that I had with President Clinton would be seen by 
some as having an influence over that. I felt it was important 
to clarify----
    Mr. Jordan. Not just some, General Lynch. A lot of people.
    Attorney General Lynch. And I felt it was important to 
clarify that even before I had landed in Phoenix----
    Mr. Jordan. Well, here's what I think.
    Attorney General Lynch [continuing]. I had made that 
decision. And I felt----
    Mr. Jordan. Here's what I see happening here.
    Attorney General Lynch [continuing]. It was important that 
people hear that from me.
    Mr. Jordan. Here's what I think is--I think your actions 
made it worse. I really do.
    I think a lot of people already think that there are two 
systems, as many have talked about, one for we, the people, a 
different one, entirely different one, for the politically 
connected. If you're a former Secretary of State, you're a 
former Senator, you're a former First Lady, you're a nominee 
for President, and your husband meets with you 5 days before a 
decision is announced--different standard for those facts.
    And you proved it. You demonstrated that it's different by 
your actions, because you said you've never done this before. 
So you not only--you changed your internal practices. You 
changed the fact that you've never announced beforehand that 
you're going to follow a recommendation before you even have 
the recommendations. Your actions contributed to this belief 
that the system is rigged.
    And that--you made a bad situation worse by saying, I'm 
going to do whatever they recommend, even though I don't know 
what the recommendations are. I don't know anyone who would 
conduct themselves that way when they're the ultimate decider. 
But you said, I'm going to wait--I'm going to do whatever they 
said, and I'm not even going to wait to see what they're 
recommending, I'm gonna follow it.
    You showed that this case was different. And the law is 
supposed to treat every single person the same. And your 
announcement, by definition, made this thing entirely 
different. And then, of course, what was ultimately decided 
made it entirely different, as well.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Louisiana, Mr. Richmond, for 5 
minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    Rome is burning, there's blood on the streets of many 
American cities, and we are beating this email horse to death.
    In our last Committee meeting, I implored this Committee to 
do something, to have a hearing, to respond to the deaths of 
Alton Sterling and Philando Castile. And when I said it, I said 
it's important that we act because I am very fearful that there 
will be bloodshed on the streets and that people will start to 
take it into their own hands. Unfortunately, I was right. And 
I'm going to ask again that we do something to start to convene 
a conversation on how we protect both police and citizens.
    Attorney General Lynch, let me ask you, how do you initiate 
pattern and practice investigations within your Civil Rights 
Division? And has Baton Rouge Police Department undergone a 
pattern and practice review?
    Attorney General Lynch. Well, Congressman, thank you for 
raising this important issue.
    An investigation into whether or not a police department 
presents a pattern or practice of unconstitutional behavior can 
come about in a number of ways. There have been times when 
public officials have reached out to us to raise issues of 
concern. There have been times when community groups or leaders 
have reached out to us to raise issues of concern.
    There have been times when specific incidents or actions or 
cases have themselves raised issues of concern, and, through 
the investigation of a particular case, we look at the police 
department, and we may initiate an investigation.
    And there actually have been instances when police 
departments have come to us and requested technical assistance 
or a review, and we have started on the practice of what is 
often called collaborative reform, and we have converted that 
into a pattern or practice investigation.
    Mr. Richmond. Has Baton Rouge?
    Attorney General Lynch. That's Baltimore, actually.
    Mr. Richmond. No, have we done that in Baton Rouge?
    Attorney General Lynch. In Baton Rouge, we are beginning 
the investigation--we, meaning the Department of Justice--are 
beginning the investigation into Mr. Sterling's death.
    Mr. Richmond. Right.
    Attorney General Lynch. We will, of course, be cognizant of 
issues about the police department that may be raised there.
    Mr. Richmond. Well, let me just give you some background.
    September 2005, out-of-State troopers accused Baton Rouge 
police of harassing Black people, illegal searches, and 
unnecessary violence in the days after Katrina. Troopers from 
New Mexico and Michigan, totaling seven, said that, as a thank 
you, Baton Rouge police offered to let him beat a suspect to 
thank them for coming down to help and that they were ordered 
to make life rough for New Orleans evacuees so that they would 
leave town.
    March 2007, Brian Townsend was arrested for a noise 
complaint. He ended up being hit in the back by Officer Nathan 
Davis, causing him to defecate on himself. He was then kicked 
in the groin, which ended up rupturing his bladder. He was 
awarded $239,000. Officer Davis was fired.
    July 2008, Jon Shoulders suffered a fractured skull, brain 
bleeding, and permanent brain damage after being beaten by 
Officer Lorenzo Coleman when Shoulders moved toward him with 
fists clenched. He was awarded $350,000.
    In 2011, Carlos Harris was ordered by Officer Christopher 
Magee to move a car despite Harris telling the officer that he 
was too drunk to drive. Harris, while attempting to move the 
car, crashed into several police officers. Magee shot him dead 
despite being told not to by another officer. Harris' family 
settled for $495,000.
    Corporal Robert Moruzzi used excessive force on Brett 
Percle, 24, whose head was stomped on and whose teeth were 
knocked out during a drug raid in 2014. That settled for 
$25,000.
    Officer Michael Elsbury resigned after being accused of 
sending a series of racist text messages. Ultimately resigned, 
but they have not reviewed all of his cases and his arrests, 
and one officer can make a complete difference in the length of 
time and whether someone gets arrested.
    So I would just ask, formally ask--and I can do it in 
writing also--that we initiate a pattern and practice 
investigation on the Baton Rouge Police Department. And that is 
for police departments that may be violating people's civil 
rights. And I will not make an ultimate conclusion of whether 
they are or are not; I will leave that to you all. But I would 
ask for the investigation.
    And, Mr. Chairman, I would ask unanimous consent to submit 
for the record an op-ed written by Clint Smith that's titled 
``Police Killings Get a Lot of Attention. So Should Police 
Beatings.''
    Thank you.
    Mr. Goodlatte. Without objection, that will be made a part 
of the record.*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Committee, and can also be accessed at:
---------------------------------------------------------------------------
    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105175
    Mr. Goodlatte. And Ms. Bass had asked earlier and did not 
get a response from me to make--to put in the record the Say 
Her Name report. Without objection, that will be made a part of 
the record, as well.**
---------------------------------------------------------------------------
    **Note: The material referred to is not printed in this hearing 
record but is on file with the Committee, and can also be accessed at:
---------------------------------------------------------------------------
    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105175
    Mr. Goodlatte. The Chair thanks the gentleman and would 
advise the Members there is a vote on the floor, one vote. 
There is about 10 minutes remaining in that vote.
    We'll go ahead and recognize the gentleman from Utah, Mr. 
Chaffetz, for 5 minutes. And then we will recess to give the 
General an opportunity for a brief break, but we'll resume 
immediately after.
    Mr. Chaffetz. I thank the Chairman.
    And, Madam Attorney General, thank you so much for being 
here.
    Attorney General Lynch. Good afternoon.
    Mr. Chaffetz. Does an individual need a security clearance 
to review or have access to classified material?
    Attorney General Lynch. Congressman, that issue would be 
dependent upon the agency for whom they worked and the nature 
of the work that they did with respect to----
    Mr. Chaffetz. Can you give me an example where you don't 
need a security clearance to view classified material?
    Attorney General Lynch. No, I believe, as I was going to 
say, they would, but the type of clearance varies with every 
agency, and the agency would make that decision and 
determination.
    Mr. Chaffetz. Is it legal or illegal to share classified 
information with somebody who doesn't have a security 
clearance?
    Attorney General Lynch. Congressman, it depends on the 
facts of every situation. You'd have to determine how that 
sharing occurred. You'd have to determine the means. You'd have 
to determine, you know, the reason, the intent. Certainly, 
depending upon how you view the statute, it could go any number 
of ways.
    Mr. Chaffetz. So you think there is a scenario in which you 
could share classified information with somebody who doesn't 
have the requisite security clearance.
    Attorney General Lynch. No, I would not draw that 
conclusion. I would say that I'm not able to answer it as a 
hypothetical but that there are a number of factors that would 
go into the decision, and one could have any number of results.
    Mr. Chaffetz. Is it legal or illegal to provide access to 
somebody who doesn't have the requisite security clearance to 
view classified material?
    Attorney General Lynch. To provide access?
    Mr. Chaffetz. Yeah.
    Attorney General Lynch. Again, you know, I'd need more 
facts on the hypothetical, but I would look at a number of 
things, and depending upon how you reviewed it, it could go any 
number of ways.
    Mr. Chaffetz. Is it legal or illegal to store, house, or 
retain classified information in a nonsecure location?
    Attorney General Lynch. Again, I would refer you to the 
statute. One could, in fact, have liability, again, depending 
upon the nature and facts and circumstances----
    Mr. Chaffetz. Do you have any examples of where it's 
legally acceptable to retain classified information in a 
nonsecure location?
    Attorney General Lynch. I don't have a hypothetical answer 
for that.
    Mr. Chaffetz. Is it legal or illegal to provide false 
testimony under oath?
    Attorney General Lynch. There are a number of statutes that 
cover that, both at the Federal and State level. There are a 
number of ways in which that could be found.
    Mr. Chaffetz. There's a difference between prosecuting 
something and whether it's legal or illegal. You know, these 
questions are pretty simple. And we've got millions of people 
with security clearance. How are they supposed to go through 
the gyrations that you've laid out in order to make a simple 
determination?
    Attorney General Lynch. Congressman, if we had a specific 
fact situation or fact pattern, that could be reviewed.
    Mr. Chaffetz. I'm just asking is it legal----
    Attorney General Lynch. When it comes to a hypothetical 
situation, it would be unfair to come up with a blanket answer 
to someone without reviewing all the facts of their situation.
    Mr. Chaffetz. I'm asking if it's legal or illegal to share 
classified information with somebody who doesn't have a 
security clearance.
    Attorney General Lynch. Again, I would refer you to the 
appropriate statutes, and I'd refer you to the facts of every 
situation. It would be unfair to give a blanket answer to every 
hypothetical.
    Mr. Chaffetz. Why aren't we telling all the Federal 
employees and contractors who have access to classified 
information, those in our military, why aren't we telling them, 
``You can't do this. It's against the law''? Why can't you say 
that?
    Attorney General Lynch. We give them guidance. Again, every 
agency does. We give them examples. We give them information as 
to----
    Mr. Chaffetz. Wait, wait, wait.
    Attorney General Lynch [continuing]. How to make those 
decisions. We show them. And, again, every agency----
    Mr. Chaffetz. Why is the law not sufficient guidance? You 
believe--is there a flaw in the law? Is there a suggestion on 
the law? I mean----
    Attorney General Lynch. I don't have a comment on the state 
of the law. My answer is that in order----
    Mr. Chaffetz. Somebody asked me to consult an attorney, and 
you are the Attorney General. And I think you're sending a 
terrible message to the world, to those people who are trying 
to make some simple decisions. The lack of clarity that you 
give to this body, the lack of clarity on this issue is pretty 
stunning. These seem like simple issues.
    Let me ask you, the team that you talk about in the 
Secretary Clinton email scandal, outside of the FBI, who is on 
that team that you refer to that made the recommendation?
    Attorney General Lynch. As I indicated before, they would 
be career prosecutors.
    Mr. Chaffetz. Okay, so they're prosecutors. Anybody else on 
the team that was a participant in the investigation?
    Attorney General Lynch. Not to my knowledge. I'm not sure 
if you're referring to anybody else. Can you give me some 
further context for that?
    Mr. Chaffetz. I don't know--like, if they go back and do 
security clearances, determine classification, whether it's 
secure or nonsecure, I would think that there would be somebody 
outside of the FBI that would help you make those 
determinations.
    Attorney General Lynch. Well, the Department of Justice 
team would be Department of Justice employees. With respect 
to----
    Mr. Chaffetz. I'm trying to ask specific to which 
departments within the Department--I mean, the Department of 
Justice is a large organization, right? FBI is part of that; 
prosecutors are part of it. Who above and beyond prosecutors 
and the FBI was involved in this investigation?
    Attorney General Lynch. As I've indicated before, the DOJ 
team was composed of the career lawyers and seasoned agents in 
there. I'm not sure if you're asking about something outside of 
DOJ----
    Mr. Chaffetz. I didn't know if there was another unit or 
other people that were part of it. That was my question.
    My time was expired. I wish I had about 20 more minutes.
    Thanks, Mr. Chairman. I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    The Committee will stand in recess for approximately 15 
minutes.
    [Recess.]
    Mr. Goodlatte. The Committee will reconvene.
    When the Committee recessed, we were questioning General 
Lynch under the 5-minute rule.
    And the Chair now recognizes the gentlewoman from 
Washington State, Ms. DelBene.
    Ms. DelBene. Thank you, Mr. Chair.
    And, Madam Attorney General, thank you so much for being 
with us today and for all of your time.
    Over the past several years, I have come to know a young 
man, a DREAMer, in my district. His name is Andres, and he's a 
truly impressive young man. He's a bright student, a volunteer 
in his community, and really an eloquent advocate for 
individuals across the country with stories just like his.
    Someone like Andres knows no other home. His home is 
Washington State. And, in my view, we should be supporting 
DREAMers like Andres, not deporting them.
    I wanted your feedback on what you think the Supreme 
Court's 4-4 ruling means legally for people like Andres.
    Attorney General Lynch. Thank you, Congresswoman.
    Well, certainly, with respect to--the Court's 4-4 ruling 
essentially refers to the most recent executive actions taken 
by the President. So if someone in young Mr. Andres' position 
were here----
    Ms. DelBene. He missed the original DACA by 26 days.
    Attorney General Lynch. Ah, he was not in the original 
DACA. Yes. Well, that program has been enjoined at the State 
and Federal level in Texas and the Fifth Circuit. That 
injunction remains in effect, which means that the program is 
not currently being implemented.
    Ms. DelBene. And so, if the ruling remains in place, what 
does that mean for the Department of Justice? And, in 
particular, would you view this as essentially taking away the 
prosecutorial discretion that you would have in any other 
context?
    Attorney General Lynch. Well, certainly, with respect to 
prosecutorial discretion, we will still exercise our discretion 
in terms of what cases we prosecute and how we prosecute them 
at the border. We will still continue to focus on individuals 
who pose a threat to society and raise issues of violent crime, 
particularly those who have criminal records. We'll continue to 
focus on those individuals who have more recently come across 
the border. We will continue to make public safety the 
watchword, as it always has been, of our enforcement actions.
    And, of course, I'm sure the Department of Homeland 
Security will be looking at the ruling, as well.
    Ms. DelBene. So, to back up a bit, what do you think the 
role of prosecutorial discretion is in a general sense? And do 
you exercise prosecutorial discretion in other contexts outside 
of immigration?
    Attorney General Lynch. Well, we exercise prosecutorial 
discretion in every context because of resource issues, for the 
most part, as well as the different priorities presented by the 
challenges of the law enforcement environment.
    We, of course, are focusing great attention on matters like 
violent crime and the heroin-opioid issue today and trying to 
make sure that we have sufficient resources to cover those 
important issues.
    Immigration cases are a large part of our docket. We try 
and make sure that we handle them thoroughly, efficiently, but 
fairly as well. And we also try and make sure that we protect 
individuals who live in immigrant communities who still have a 
need to come forward to law enforcement.
    Ms. DelBene. So why do you think this particular case is so 
controversial, given that you use this discretion in other 
ways?
    Attorney General Lynch. You know, I can't speak to the 
points others choose to make about the decisions and the 
policies that are set forth. I leave that to them to 
characterize their views and why it's important.
    But, certainly, from a prosecutorial perspective, managing 
resources is an important part of what we do. Determining the 
people who should be our priority targets for prosecution is 
something that we do on a routine basis.
    And we take a number of things into account for that. We 
look at, as I indicated before, the type of threat posed by 
individuals or certain groups of individuals. We look at the 
amount of law enforcement resources that we have to handle a 
situation and our ability to augment those resources or whether 
they are being diminished over time. So a number of things go 
into that calculation.
    Ms. DelBene. Will indiscriminately deporting immigrants 
make us safer?
    Attorney General Lynch. Well, certainly, you know, I don't 
have a comment on the policy there. I think that, from a 
prosecutorial discretion point of view, we do focus on 
individuals who pose danger to the community. That is our 
focus, is the protection of the American people.
    So individuals who have a violent background, a violent 
history, who have engaged in violence, those would be 
individuals that we would look at and find a way to remove them 
from the community, either by prosecution--there could be 
deportation. Again, we'd work with the Department of Homeland 
Security on that issue since they handle deportations per se.
    And so we would look, again, at trying to make the 
community as safe as possible.
    Ms. DelBene. Thank you so much.
    I yield back, Mr. Chair.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
recognizes the gentleman from South Carolina, Mr. Gowdy, for 5 
minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Madam Attorney General, the central issue to me is this 
perception, frankly, rooted in some realities, of a dual-track 
or two-tiered justice system. And I know that you have 
dedicated your career to the pursuit of justice. I know you 
work for a blindfolded woman who's holding nothing but a set of 
scales. And I think it's important that she's blindfolded 
because she shouldn't see the race, the gender, the 
socioeconomic status, the fame or lack of fame of the person in 
front of her.
    And I'm sure you've experienced it, like some of the rest 
of us. It's not just the suspect or the target or the 
defendant. The witnesses have to have confidence in the justice 
system. The jurors have to have confidence in the justice 
system. The public has to have confidence in the justice 
system.
    So this dual track, different set of rules for certain 
people than for others--it, frankly, should not matter whether 
you are running for President or running late to a kid's ball 
game, the same rules ought to apply to everyone.
    So let me ask you this. Why do you think it's important to 
use official email to conduct official business?
    Attorney General Lynch. I believe it's important to do 
that. I think that, certainly, every department has chosen to 
craft the way in which they carry out their business, and it 
provides for a way of doing business in a secure system.
    Mr. Gowdy. So you use official email to conduct official 
business.
    Attorney General Lynch. Yes, sir, I do.
    Mr. Gowdy. Okay. And do you ever email, send or receive, 
classified information on personal email?
    Attorney General Lynch. I do not.
    Mr. Gowdy. I doubt you even use your USDOJ.gov account to 
send classified information, do you?
    Attorney General Lynch. We have separate systems.
    Mr. Gowdy. Right.
    Attorney General Lynch. So there would be a separate----
    Mr. Gowdy. Classified system.
    Attorney General Lynch [continuing]. System for that.
    Mr. Gowdy. Right. So not only do you not use personal email 
to do it, you don't even use your USDOJ.gov. You have a 
separate, dedicated system to handle classified information. 
Why?
    Attorney General Lynch. We have a separate system to handle 
the security needs.
    Mr. Gowdy. But my question is why. Why is it important 
enough to you to not use personal email to conduct public 
business and to use a separate, more safely guarded system when 
you do handle classified information?
    Attorney General Lynch. That is the practice that I have 
certainly always followed. It----
    Mr. Gowdy. But it's not just your----
    Attorney General Lynch [continuing]. Allows for the 
protection----
    Mr. Gowdy. I mean, it's not just a personal preference, is 
it?
    Attorney General Lynch. Oh, no. It allows for the 
protection of the information, both on a regular system--
because, again, that's still sensitive law enforcement types of 
matters--and then a classified system for separately classified 
information.
    Mr. Gowdy. What element do you think was lacking in the 
statutes that you evaluated as it relates to Secretary Clinton?
    Attorney General Lynch. So let me again, as I've indicated 
before--and I want to make it clear that, as I indicated 
before, the reason why I will not be going into the analysis 
that was provided and the discussion that we had between myself 
and the team is because we protect our teams, and they have to 
be free to provide information and analysis in a confidential 
way without the fear or impact of there being a political 
influence on that. And----
    Mr. Gowdy. I understand that.
    Attorney General Lynch [continuing]. That is why I have not 
gone into that type of discussion.
    What I can tell you is that the team did evaluate the 
relevant statutes that were considered in this investigation. 
They looked at all of the facts in evidence, and, as in every 
case, they applied them to that statute----
    Mr. Gowdy. All right. But my----
    Attorney General Lynch [continuing]. To determine whether 
the elements had been met.
    Mr. Gowdy [continuing]. Specific question to you, Madam 
Attorney General, is, what element of which offense did you 
find lacking from an evidentiary standpoint?
    Attorney General Lynch. Well, I would say that in order to 
answer that I would have to go into the entire level of 
analysis.
    Mr. Gowdy. Well, don't you think public perception in a 
single-track justice system is important enough that you could 
at least touch on what you thought was lacking?
    Attorney General Lynch. Congressman, in this case, we have 
taken the unusual step of discussing it in ways that the 
Department typically does not in order to provide more clarity 
into the situation. And while I understand that it is 
frustrating to a number of people, civilians as well as Members 
of this body alike, we have taken extraordinary steps to 
discuss this matter in ways that typically we do not----
    Mr. Gowdy. Let me ask you this.
    Attorney General Lynch [continuing]. Particularly when 
charges are not brought.
    And, as I indicated before, just so it's clear, my reasons 
for not going into the substance of the information that I 
receive and review before I made my decision to accept the 
recommendation are that the teams that I work with, whether 
it's this case or any other, be free to provide confidential 
analysis, discussion without the input of any kind of 
political----
    Mr. Gowdy. With all due respect, Madam Attorney General, 
you can do all of what you just described and still tell the 
people what element--I mean, the elements of a criminal offense 
are public. So there's no secret there.
    And for you to go through the elements and say, as Director 
Comey did--he said there was no specific intent. I'm out of 
time, but I suspect you have prosecuted reckless homicide 
cases, haven't you?
    Attorney General Lynch. In the context of violent crime.
    Mr. Gowdy. How about involuntary manslaughter?
    Attorney General Lynch. For the Department or personally?
    Mr. Gowdy. No, just as a prosecutor.
    Attorney General Lynch. My----
    Mr. Gowdy. There's involuntary manslaughter. There's 
reckless homicide. There's felony DUI, where you really didn't 
mean to hurt anybody, you really didn't, but you did. And this 
lack of specific intent is not a defense in any of those cases.
    So I think the public would like to know how you determined 
she did not have the intent to break the law and why you are 
applying a specific-intent requirement here when you don't even 
do it in certain homicide cases.
    Attorney General Lynch. Well, Congressman, as I've said--
well, I think you've mentioned a number of State cases there. 
But, as I've said, the reason why I am not going into the 
discussion I had and providing that particular level of 
information, although the FBI Director did choose to do so, is 
that the information the team provides to me on this or any 
other case has to be given in a zone of confidentiality so that 
they can be clear and sure that there's never a political 
overtone to their decisions, nor will I apply one in accepting 
their decisions.
    That's why we have taken the unusual steps of providing 
greater information, as frustrating as that has been for a 
number of people, to have additional information. That's why I 
took the unusual step of clarifying my role in this 
investigation.
    Mr. Gowdy. Well, I'm out of time, but the only thing I find 
frustrating is that, even after this and Director Comey, people 
still believe that if you are famous there's a different set of 
rules than if people don't know your name. And I think you're 
missing a wonderful opportunity to say with specificity which 
evidentiary element you found lacking.
    Congress can go fix the statute if you think we need to, 
but right now we have no idea whether or not a President Lynch 
could do exactly what Secretary Clinton did or whether 
President Clinton could do exactly what Secretary Clinton did. 
And I think that lack of clarity is bad for the Republic, quite 
frankly.
    I would yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Rhode Island, Mr. Cicilline, for 
5 minutes.
    Mr. Cicilline. Thank you, Madam Attorney General, for being 
here and for your time.
    We are living in very difficult times, where we see 
violence and guns continuing to plague our communities. And 
building communities of trust and respect are critical, and 
reducing the ability of dangerous individuals to easily access 
guns is part of the answer.
    What I really want to focus my inquiry on is the first part 
of that effort. And I was, before coming to Congress, mayor of 
Providence, and my former chief used to say the most powerful 
weapon in the police department in fighting crime and keeping 
communities safe is the trust and confidence of the people they 
serve.
    I have had the unfortunate occasion to both comfort 
families who lost a loved one to gun violence, mothers and 
fathers and siblings, as well as to, in August--in April of 
2005, to have lost a police officer to a shooting inside the 
Providence police station, Detective Jimmy Allen, which was a 
very painful experience for the city and for the department.
    Both of those examples are horrible and painful events, not 
capable of easy answers or quick fixes. But one thing that I 
found as mayor of the city was, when I took over, we had a 
police department that was under investigation by the 
Department of Justice for patterns and practice civil rights 
issues and crime was on the increase and the community had 
really lost confidence in the department. And as a result of 
implementing a citywide community policing model, we really 
rebuilt the confidence of the community, the department became 
accredited. Remarkable turnaround, and we produced the lowest 
crime rate in 40 years.
    So it was an example of really investing and building 
relationships between the police and community, which made the 
police officers safer and made the community safer. And so what 
I really want to ask you about is what the Department of 
Justice or Congress can do to help that kind of thing happen in 
other cities around the country.
    There was a 2007 national survey of police leaders, and 
they identified insufficient resources and the support of 
frontline officers as the two major obstacles to implementing 
community policing models effectively. And I'd love your 
thoughts on what we can do as a Congress, what DOJ is doing to 
help close these gaps with local and State law enforcement 
agencies.
    Attorney General Lynch. Well, thank you for raising this 
important issue, Congressman, one that has become central to my 
tenure as Attorney General. And I've had the privilege also of 
traveling to different communities, much like yours, 
Providence, that had a pattern and practice, and yet residents 
and police officers, together, determined that they would 
rebuild to a positive relationship. So, as you note, it can be 
done, it has been done, and I have seen it done.
    With respect to what the Department of Justice is doing, we 
are supporting the work of community policing around the 
country through our Community-Oriented Policing Service that 
provides technical assistance to police departments upon their 
request. One of the things that we try and do is match up 
police departments facing specific issues--crowd control, for 
example; a question about whether their excessive force policy 
really is sufficient--we try and pair them with police 
departments that have dealt with those issues and, in fact, 
come to a positive working relationship so that they can have a 
peer-to-peer connection. Because there is a lot--there is a 
tremendous amount of positive police work being done in this 
country, and we need to spread that as well.
    We're also supporting through COPS grants local 
municipalities hiring additional officers and retaining those 
officers.
    Through supporting the recommendations of the President's 
Task Force on 21st Century Policing, we're supporting a number 
of pillars, particularly officer safety and wellness. And I've 
been privileged to watch some outstanding training focusing on 
instilling in officers from the beginning of their time on duty 
that when they are encountering someone on the worst day of 
that civilian's life, they themselves need as much support and 
training as possible.
    The issue of resources is one that is raised with me a 
great deal, with respect to officers and departments who want 
to set up wellness programs, who want to have a dedicated 
community policing officer, who want to expand their school 
resource officer program,and yet their municipalities are 
struggling to provide the resources. We try and help.
    Of course, assistance with that is always welcome. I'm 
happy to have our staffs speak about ways in which we can work 
together on that.
    Mr. Cicilline. Great.
    And just quickly, in connection with that, there was a 2006 
Department of Justice report that found police academies spend 
an average of 110 hours training their recruits on firearm 
skills and self-defense but only 8 hours on conflict management 
and mediation.
    And I'm wondering whether or not you think that's a 
sensible allocation and what can be done really to give a more 
balanced approach in the training, because that's obviously 
part of it.
    And I'm hoping that out of this difficult time that we are 
experiencing because of the tragedy in Dallas and the other 
shootings we're seeing around our country that we can come 
together and respond to some of this. And I'd love your 
thoughts on that.
    Mr. Goodlatte. The time of the gentleman has expired, but 
the witness will be permitted to answer the question.
    Attorney General Lynch. I believe that police departments 
around the country are looking at exactly that issue and trying 
to ensure that they have ongoing training in mediation, 
conflict resolution, and, most importantly, deescalation at the 
police academy and also throughout the life of the sworn 
officers. I've been privileged to actually see some of the 
training given to on-duty officers as part of their continuing 
education.
    Mr. Cicilline. Thank you, Madam Attorney General.
    I yield back.
    Chairman Goodlatte. The Chair would advise Members that 
there is another adjournment vote on the floor, a motion to 
adjourn. The gentleman from Idaho is recognized for 5 minutes, 
and then the Committee will stand in recess to take that vote.
    Mr. Labrador. Thank you.
    Madam Attorney General, thank you for being here, and thank 
you for your service to this Nation.
    I happen to disagree with Director Comey's conclusion, but 
I have a great deal of respect for him. I have seen him to be 
nothing but an honorable man. And reasonable minds can 
disagree. So I just have some questions that are similar to 
what has been asked before but a little bit different.
    Director Comey said repeatedly that Secretary Clinton and 
her colleagues were ``extremely careless'' in their handling of 
very sensitive, highly classified information. Do you agree 
with this assessment?
    Attorney General Lynch. I don't have a characterization of 
their actions. Typically, we do not characterize the actions of 
individuals. That was Director Comey's assessment of that, and 
my review----
    Mr. Labrador. So you don't accept his assessment, but you 
only accept his recommendation to not charge.
    Attorney General Lynch. As I have said before, I did not 
come to a characterization or a description, as he did, of 
individual behavior. My discussion was focused on the 
investigation, what it revealed----
    Mr. Labrador. Okay. That's fine.
    Attorney General Lynch [continuing]. And how it applied to 
the legal standards.
    Mr. Labrador. So Secretary Clinton had a security clearance 
while she was serving at the State Department, correct?
    Attorney General Lynch. As far as I know, that is correct.
    Mr. Labrador. If any other Federal employee with a security 
clearance is extremely careless with classified information, in 
your opinion, what would happen to that person's clearance?
    Attorney General Lynch. I believe the matter would be 
reviewed and investigated and the appropriate actions would be 
taken.
    Mr. Labrador. And, in fact, Director Comey suggested, if 
Secretary Clinton were anyone else, the facts uncovered in the 
FBI the investigation could have cost her that security 
clearance. Is that correct?
    Attorney General Lynch. I don't want to characterize the 
Director's statements or testimony. I'd have to----
    Mr. Labrador. But anybody else who would've been extremely 
careless with their security information, they would have lost 
their security clearance, correct?
    Attorney General Lynch. I think the matter would have to be 
reviewed and handled according to the rules of the relevant 
agency.
    Mr. Labrador. In your experience as a Federal prosecutor, 
if any other American with a security clearance had acted 
extremely carelessly with classified information, what would 
DOJ's position be in prosecuting that person?
    Attorney General Lynch. Well, with respect to whether or 
not a prosecution would ensue, the issue would be the same as 
here, whether or not the evidence rose to the legal standard of 
all the statutes that were considered. So it would be the----
    Mr. Labrador. But you would seriously look at that, 
correct?
    Attorney General Lynch [continuing]. Same consideration. It 
would be the same consideration that was done here, but it 
would have to, again, reflect all of the relevant facts and not 
just a characterization of that. And, again, I did not make a 
characterization or conclusion about that.
    Mr. Labrador. No, but if your characterization would have 
been that somebody acted extremely carelessly--what if that 
individual transacted business on Gmail?
    Attorney General Lynch. As I said before, I don't have a 
characterization or description of anyone, and----
    Mr. Labrador. I'm not asking you for that.
    Attorney General Lynch. Well, my only point, sir----
    Mr. Labrador. I'm saying, if you would have found just a 
regular person working at DOJ extremely carelessly handling 
classified information on Gmail.
    Attorney General Lynch. My only point, sir, is that the 
legal standard would have to be met----
    Mr. Labrador. Okay.
    Attorney General Lynch [continuing]. And you would have to 
look at the relevant statutes regarding that person's 
information and how it was transmitted.
    Mr. Labrador. So was Director Comey correct----
    Attorney General Lynch. And the characterization or 
description----
    Mr. Labrador. You've said that.
    Attorney General Lynch [continuing]. Did not go to that.
    Mr. Labrador. Was Director Comey correct in stating that 
the range of punishment is from reprimand to termination to a 
possible criminal prosecution when someone is found to have 
mishandled classified information?
    Attorney General Lynch. Certainly, if he was speaking about 
the steps that the FBI would possibly take, I would certainly 
reflect--I believe he would be reflecting his agency's own 
understanding of that.
    Mr. Labrador. Okay. Has the Department ever reprimanded, 
terminated, or prosecuted an employee for mishandling 
classified information?
    Attorney General Lynch. I'm not at liberty to go into that. 
We don't discuss individual matters here.
    Mr. Labrador. So you haven't--this would be a public 
record, if you have prosecuted somebody.
    Attorney General Lynch. It would be a public record. I 
don't have that information now for you.
    Mr. Labrador. And you have not reprimanded or terminated 
anybody who has mishandled classified information?
    Attorney General Lynch. I don't know the answer to that 
information. I'm happy to have our staffs speak and provide you 
whatever information we can consistent with DOJ policy and the 
law.
    Mr. Labrador. So if a low-level DOJ attorney or FBI agent 
was reprimanded for carelessness with classified information, 
would that person have any chance of being promoted or 
otherwise advancing in their career?
    Attorney General Lynch. Congressman, I can't speak to a 
hypothetical. I also, again, would urge caution with using a 
characterization or description instead of a legal analysis.
    Mr. Labrador. But you want us to respect----
    Attorney General Lynch. And I think you have to look at the 
facts----
    Mr. Labrador [continuing]. Director Comey's conclusion but 
not his words?
    Attorney General Lynch. You have to look at the facts in 
every situation, and you have to----
    Mr. Labrador. I'm sorry. I'm actually confused by your 
statement. You want us to respect his conclusion, which I do 
even though I disagree with it, but you don't want us to 
respect his words or to actually take any kind of statement 
that he made at face value. Is that what you are saying?
    Attorney General Lynch. Congressman, my answer is that, as 
I said before, a characterization or a description is not the 
issue; it's was a relevant legal standard reached. In every 
case, you would look at the relevant legal statute, and you 
would see if the determination had been made that, in fact, 
those elements had been met.
    Mr. Labrador. You can't even tell us, if one of your 
employees carelessly used information, whether you would 
advance them in their career or not.
    Attorney General Lynch. We look at every case and all these 
situations, all the facts, and all the issues, we apply the 
rules, and we come to a decision or determination there 
consistent with the rules of our organization, as I believe any 
other organization would.
    Mr. Labrador. I yield back my time.
    Mr. Goodlatte. The Committee will stand in recess until the 
completion of this vote in about 15 minutes.
    [Recess.]
    Mr. Goodlatte. The Committee will reconvene. When we 
recessed, we were questioning General Lynch under the 5-minute 
rule, and the Chair now recognizes the gentleman from New York, 
Mr. Jeffries, for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chairman.
    I want to thank the Attorney General for your presence here 
today, for your leadership in this country.
    And let me first just associate myself with the remarks 
that have been made by others with respect to expressing 
concern about the apparent willingness of the Antitrust 
Division of the Department of Justice to move from a model of 
fractional licensing to 100 percent licensing in the context of 
the ASCAP and BMI consent decrees. I think songwriters and the 
publishing community are already under siege and this will just 
exacerbate the problem.
    I have great respect for my colleagues on the other side of 
the aisle, but we are in the midst of a gun violence epidemic 
here in America. Five police officers were killed in Dallas, 
Texas; 49 members of the LGBT community were gunned down in 
Orlando; 14 Americans were killed at a holiday party in San 
Bernardino; 9 individuals, God-fearing folks, were killed at a 
church in Charleston, South Carolina; 20 children were killed 
at a school in Newtown, Connecticut. We have mass shooting, 
after mass shooting, after mass shooting.
    Yet this hearing has been about email. Not the gun violence 
epidemic, not the explosion of mass shootings, not the tense 
relationship between the police and communities of color. It's 
been about email.
    This is not a legitimate oversight hearing with the 
Attorney General of the United States of America designed to 
try to find public policy solutions to the problems of the 
American people. It's a fishing expedition. It's a reckless 
legislative joyride designed to crash and burn. It's a sham. 
And the American people, in the midst of an incredible gun 
violence epidemic throughout the country, deserve better.
    Let me ask a few questions about the relationship between 
the police and the community in the little time that I have 
remaining in the context of the Eric Garner case. You testified 
earlier today that it was important to try to strengthen the 
relationship between the police and the community, increase 
trust. Is that correct?
    Attorney General Lynch. Absolutely.
    Mr. Jeffries. Would you agree that one of the problems that 
we have in America is the fact that there are many people who 
believe that when police officers, the overwhelming majority 
are hardworking public servants who are there to protect and 
serve, but when some police officers use excessive force 
resulting in the death often of an African-American male, 
sometimes unarmed, that that officer is rarely held accountable 
by the criminal justice system. Is that a legitimate concern 
that people throughout America have?
    Attorney General Lynch. People have expressed that to me 
throughout my travels as a concern that they have.
    Mr. Jeffries. Now, about 2 years ago, Eric Garner was 
killed as a result of a chokehold deployed against him by 
Officer Pantaleo in Staten Island. Is that correct?
    Attorney General Lynch. Well, I'm not able to give you the 
conclusion on that. Certainly, it's a matter that's under 
investigation now.
    Mr. Jeffries. But he was killed, I mean, that's clear to 
everyone. I'm not saying it was a homicide, justifiable. Mr. 
Garner was killed. Is that right?
    Attorney General Lynch. Yes, approximately 2 years ago.
    Mr. Jeffries. Okay. And you opened up an investigation I 
believe in December of 2014--or December of 2015, perhaps--
December of 2014, in connection with the death of Mr. Garner. 
Is that right, the Department of Justice?
    Attorney General Lynch. Late 2014.
    Mr. Jeffries. Late 2014. And so that investigation is still 
ongoing. Is that right?
    Attorney General Lynch. Yes, it is.
    Mr. Jeffries. And in order to--what is the standard by 
which the Department of Justice will consider whether a civil 
rights action is merited?
    Attorney General Lynch. In terms of a referral or an 
ultimate conclusion?
    Mr. Jeffries. Ultimate conclusion.
    Attorney General Lynch. Ultimate conclusion, we, as in 
every case, we look at the law and we look at the facts and 
determine if we are able to meet all of the elements of the 
relevant statutes.
    Mr. Jeffries. And what's the relevant statute in this case?
    Attorney General Lynch. Well, one statute I can tell you 
that is often considered in cases is 18 U.S.C. 242, which would 
essentially criminalize the use of excessive force by a law 
enforcement officer.
    Mr. Jeffries. And is the fact that Mr. Garner said on 11 
different occasions, ``I can't breathe,'' and 11 different 
times Officer Pantaleo failed to respond, is that a relevant 
consideration in terms of intentionality in this case?
    Attorney General Lynch. I can tell you all of the facts are 
being considered by the team.
    Mr. Jeffries. And is the fact that the chokehold had been 
outlawed by the NYPD for the previous 20 years, yet it was 
deployed in this instance, Is that a relevant consideration in 
terms of intentionality in this case?
    Attorney General Lynch. I can tell you that NYPD procedures 
and training would be part of what's considered in the case, 
but I'm not able to go further into the merits or substance of 
that.
    Mr. Jeffries. And lastly, is the fact that Eric Garner was 
unarmed and was essentially being accosted for the sale of 
loose cigarettes, is that a relevant consideration in the 
universe of facts that the Department of Justice is 
considering?
    Attorney General Lynch. I can tell you that everything is 
under consideration in the review.
    Mr. Jeffries. Thank you. I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    First off, I'd like to, respectfully, disagree with one of 
the comments the gentleman from New York just made. This line 
of questioning isn't about email. It's about national security 
and, to borrow Director Comey's words, someone at the top level 
of our government being extremely careless with classified 
information.
    And I think the other day my colleague from Texas, Will 
Hurd, a former CIA agent, made the point that mishandling 
classified information has real repercussions to our men and 
women who are working in the intelligence field and actually, 
potentially, puts their life in jeopardy.
    With that being said, General Lynch, are Federal employees 
generally prohibited from removing classified materials from 
secure areas or networks and placing it on open or unclassified 
networks?
    Attorney General Lynch. Congressman, generally speaking----
    Mr. Farenthold. It's a yes or no.
    Attorney General Lynch [continuing]. The issue that you are 
talking about would be covered by statute and regulation.
    Mr. Farenthold. But they are not allowed to do that.
    Attorney General Lynch. And it would prohibit the behavior 
that you are talking about.
    Mr. Farenthold. All right. And are people allowed to retain 
classified documents in an unclassified environment?
    Attorney General Lynch. Generally, no.
    Mr. Farenthold. All right. So let me ask you a question. 
I'm going to get back to Mrs. Clinton for a second. How did 
this information wind up on her server? I doubt Mrs. Clinton 
was technically savvy enough to copy it to a thumb drive and 
move it from one to the other; didn't have the patience to 
retype it. So, obviously, some other people took it off a 
classified network and sent it to her.
    Do you think those people should be prosecuted?
    Attorney General Lynch. Well, Congressman, with respect to 
any of the individuals considered in the investigation, as I 
indicated, I won't be going into the discussions about them.
    Mr. Farenthold. All right.
    Attorney General Lynch. And as I've indicated earlier, and 
I said I know that this is a frustrating exercise for you, it 
is because we asked----
    Mr. Farenthold. It is and it's pretty clear you are not 
going to answer my questions on it.
    Attorney General Lynch [continuing]. We asked the team to 
provide information in a confidential manner----
    Mr. Farenthold. I have a very----
    Attorney General Lynch [continuing]. So that it can be 
reviewed without their being influenced by any political 
overtures.
    Mr. Farenthold. All right, well, I have--it's pretty clear 
you are not going to answer any of my questions.
    So you were appointed by the President, who called himself, 
I think, wanted to create the most, you know, transparent 
Administration ever. So we are going to quit asking Congressman 
questions. I'm going to ask some questions that the American 
people have posted on my Facebook page.
    Both Mark from Portland, a retired Coast Guard person, and 
George, also a U.S. Army vet, want to know under oath what you 
discussed on the plane with President Clinton.
    Attorney General Lynch. Well, what I can tell you is 
exactly what we discussed was--and I have indicated earlier--
when the President indicated he wanted to say hello, I said he 
could say hello. He came on board, spoke to myself, my husband. 
There were two flight crew members on the plane. He spoke with 
them briefly. Mr.--the former President then spoke at length 
about his grandchildren.
    Mr. Farenthold. You all didn't speak at all about anything 
pending, any pending investigations or Mrs. Clinton's problems 
with the email or the Clinton Foundation or anything like that? 
None of that was discussed?
    Attorney General Lynch. If I could continue with what was 
discussed----
    Mr. Farenthold. No, I'm just asking you if you discussed 
something that might be relevant.
    Attorney General Lynch. We did not discuss anything about a 
case or a matter before the Department of Justice. We did not 
discuss Mrs. Clinton in any way. He spoke about his 
grandchildren at length. He spoke about his travels----
    Mr. Farenthold. Okay. You know, I apologize for 
interrupting you. I have only got 5 minutes----
    Attorney General Lynch [continuing]. Spoke about what he 
had done in Phoenix.
    Mr. Farenthold [continuing]. And you have been very good at 
burning up the time and stonewalling, and I do want to get to 
some questions.
    So have you ever met with anybody else on your plane on the 
tarmac?
    Attorney General Lynch. I've not had occasion to meet with 
anyone on my plane.
    Mr. Farenthold. Okay.
    Attorney General Lynch. I had been traveling at the airport 
and public individuals have asked to come in and say hello and 
I've said hello to them.
    Mr. Farenthold. Okay. And have you had any other meetings 
of more than a couple of minutes off the books with Mrs. 
Clinton, President Clinton, or their close associates, Sidney 
Blumenthal and the like?
    Attorney General Lynch. I've never had any other 
conversations with either former President Clinton or Mrs. 
Clinton before this except to say hello or was in a photo line.
    Mr. Farenthold. All right. So let me he get back to my 
question.
    Attorney General Lynch. And the other individual you 
mentioned, also no.
    Mr. Farenthold. All right, so getting back to some of the 
Facebook questions. Martin from Corpus Christi, also a retired 
Coastie, would like to know if a military person handled 
classified information the way Mrs. Clinton does, would he 
probably have been prosecuted or she possibly have been 
prosecuted?
    Attorney General Lynch. So I think that it's--that I think 
we have to look at this from the situation of if the exact same 
facts were presented and the exact same laws considered, the 
same conclusion would be come to. That is what both Director 
Comey has indicated. I'd certainly have no reason to view it 
differently. Every case is viewed differently. But, again, if 
you have the facts as they were presented here and reviewed 
here, applied to the laws that were reviewed here and analyzed 
here, that would be the conclusion.
    Mr. Farenthold. I have one question to get before I get out 
of time. This is Stuart, a friend of mine from Luling, Texas. 
And we have seen several attorney generals that have either 
been asked to resign or resigned on their own when--and I will 
use the term loosely--scandals have come up. And I think people 
have been using that word with respect to this and have 
suggested you should have recused themselves on this.
    Should the President replace an Attorney General if the 
Attorney General does not enforce the law evenly or should 
there be separate enforcement for different classes? And that's 
Stuart from Luling.
    Mr. Goodlatte. The time of the gentleman has expired, but 
the General is allowed to answer the question.
    Attorney General Lynch. Thank you, Mr. Chairman.
    Congressman, there is no separate method of enforcement for 
anyone here. And as I said before, while I understand the 
frustration of people who disagree with the decision, I will 
say that it is similar to the frustration I have encountered 
when I as a prosecutor or others who were prosecutors have to 
explain to someone why charges are not being brought if their 
family member is involved and the like.
    And so I understand the emotion that things generate, I 
understand the frustration that it generates. But it is 
something that we take very seriously. And as I said before, we 
follow the law, we follow the facts in every single case.
    Mr. Farenthold. Thank you. I see my time has expired.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Florida, Mr. DeSantis, for 5 
minutes.
    Mr. DeSantis. General Lynch, the team that recommended not 
to prosecute Secretary Clinton, did that include the deputy 
attorney general.
    Attorney General Lynch. Yes, Congressman, the day-to-day--
--
    Mr. DeSantis. Did it include the associate attorney 
general?
    Attorney General Lynch. The day-to-day team that reviewed 
the matter did not, although the matter was reviewed up 
through----
    Mr. DeSantis. How about the Office of Legal Counsel or 
Office of Legal Policy?
    Attorney General Lynch. I just want to conclude with the--
you asked about the deputy attorney general and I wanted to 
provide that information for you.
    Mr. DeSantis. Who was not, though, on the day-to-day. I'm 
just trying to get through the people because I have limited 
time. So he was not, correct?
    Attorney General Lynch. She was part of the chain of 
review, but she was not on the day-to-day team.
    Mr. DeSantis. Okay. What about the head of the National 
Security Division.
    Attorney General Lynch. The NSD was the component that was 
leading this, and so the head of the NSD or the National 
Security Division would have been in the chain of review.
    Mr. DeSantis. What about the head of the Criminal Division?
    Attorney General Lynch. No. I will tell you that the team 
was led by NSD.
    Mr. DeSantis. Okay.
    Attorney General Lynch. And therefore its head. You asked 
about the deputy attorney general, that's Sally Yates. She was 
in the chain of review, but not the day-to-day team. And the 
FBI Director, I don't know the intermediate-level supervisors 
there who would have been involved.
    Mr. DeSantis. Good. Director Comey said that the Department 
of Justice has grave concerns about whether it's appropriate to 
prosecute somebody under a gross negligence standard. Do you as 
the Attorney General have grave concerns about prosecuting--
forget about this case--anybody under a gross negligence 
standard?
    Attorney General Lynch. Our concerns are always whether or 
not we have the facts to support the charge.
    Mr. DeSantis. I'm not asking about the facts.
    Attorney General Lynch. That is a concern in every case.
    Mr. DeSantis. Assume you have the facts. Forget about this 
case. Do you have grave concerns about bringing a prosecution 
under gross negligence?
    Attorney General Lynch. Yeah, I would have to have the 
factual record before me to make that determination.
    Mr. DeSantis. Did any of the people who were on the team 
that advised you, did they tell Director Comey that they had 
grave concerns about bringing a case under a gross negligence 
standard?
    Attorney General Lynch. Congressman, I wasn't privy to 
those conversations, so I'm not able to say.
    Mr. DeSantis. Because you guys prosecute environmental 
crimes under a negligence standard, Correct?
    Attorney General Lynch. We do prosecute a number of 
crimes----
    Mr. DeSantis. Those are constitutional prosecutions, Right?
    Attorney General Lynch. We do prosecute a number of crimes 
under different standards.
    Mr. DeSantis. And States the country, you prosecute under--
for homicide, you can have a negligent homicide. And so 
Director Comey said: Well, look, people say you can do this but 
how come there haven't been cases brought recently? How many 
cases has the Justice Department declined to bring under 18 
U.S.C. Section 793(f) because they were concerned about the 
gross negligence standard?
    Attorney General Lynch. I don't have the answer to that.
    Mr. DeSantis. Do you know if there's been any that have 
been declined over the last 10, 20 years.
    Attorney General Lynch. I don't have the answer to that.
    Mr. DeSantis. I'd like to get that because I think that 
that's important, because you can say people haven't been 
prosecuted under it, but maybe people in the civilian sector 
have actually met their responsibilities by and large and not 
been extremely careless with it.
    I'm a little bit disappointed with how you have approached 
this. I think that given all the circumstances that are 
involved in this case--and, again, I'm just talking about the 
appearance of what the average Joe sees.
    You, yourself, were appointed by President Clinton in the 
'90's to be U.S. Attorney. Your current boss has said on more 
than one occasion, before Comey's recommendation, that Hillary 
Clinton having top secret information on her email did not 
damage national security. You, of course, met with Bill Clinton 
privately just days before the decision was announced not to go 
ahead with this prosecution.
    Of course, your current boss has endorsed Secretary Clinton 
to be the next President of the United States, and, in fact, 
they had a campaign trip scheduled, I believe, the afternoon 
that Director Comey announced his findings.
    And so with all of that surrounding, there's a lot of 
people that have concerns about whether this decision was made 
with proper integrity, and basically what you have told us 
today is: I'm not going to talk about it, I'm not going to 
justify it, it is what it is.
    And that falls very short, I think, of what a lot of people 
want. And I have noticed that you have been willing to opine on 
other instances when it suits you. I mean, for example, in 
Orlando in June, you said the most effective response to terror 
is compassion, it's unity, and it's love. You were interjecting 
on that.
    You said after the San Bernardino attack that your greatest 
fear was the rise of anti-Muslim rhetoric. That was something 
that you volunteered. You discussed the possibility in front of 
the Senate Judiciary Committee in March of bringing civil 
actions against people who denied climate change. And of 
course, you also discussed taking potential criminal action 
against those engaged in anti-Muslim speech.
    And so I want to ask you whether your hear-no-evil-see-no-
evil performance today, if somebody honestly just looks at what 
happened here and thinks that if they were a junior officer in 
the Navy or a mid-level official in the Federal bureaucracy and 
they treated classified information like this, that they would 
have been held accountable, and they look to see all these 
circumstances, and then here you are to justify as the head of 
the Department and you are offering them nothing.
    Do you understand that there are going to be a lot of 
people that are not satisfied with that?
    Attorney General Lynch. Well, Congressman, as I've 
indicated, I understand that people are often frustrated when 
they don't either understand or have clarity into the reasons 
behind a decision.
    In this matter, there have been a number of times when 
unprecedented clarity has been provided in terms of the FBI 
Director's statement, for example. That was unusual clarity 
into his thinking and what led up to his recommendation.
    Mr. DeSantis. It is also unusual for the Justice Department 
to be investigating somebody who is endorsed by the sitting 
President, though. I believe that's completely unprecedented. 
So there's a lot of things. The unprecedented nature of this 
can cut both ways.
    I'm out of time. I do appreciate your time, but I'm 
definitely not satisfied with your answers.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from California, Mrs. Walters, for 5 
minutes.
    Mrs. Walters. Thank you, Mr. Chairman.
    Ms. Lynch, during last week's oversight hearing Chairman 
Chaffetz asked Director Comey about Secretary Clinton's 
granting her attorneys access to emails for the purpose of 
document review.
    Specifically, he asked: Did Hillary Clinton give non 
cleared people access to classified information? Director Comey 
responded: Yes.
    My question is this. Does the conscious decision on the 
part of Secretary Clinton to grant access to classified 
information to her attorneys who did not have security 
clearance constitute criminal intent under 18 U.S.C. Section 
793(d), which describes the intent element as the following: 
``willfully communicates, delivers, transmits, or causes to be 
communicated, delivered, or transmitted, or attempts to 
communicate, deliver, transmit, or cause to be communicated, 
delivered, or transmitted to any person not entitled to receive 
it.''
    Attorney General Lynch. Congresswoman, I would need to have 
information about the recipients, what information and what 
background they had, what clearances they had or didn't have, 
and I simply am not able to provide you with that--with that 
answer, because I don't have that full information.
    Mrs. Walters. So you do not know if her attorneys had 
security clearance?
    Attorney General Lynch. I do not have that information.
    Mrs. Walters. My understanding is they did not. But having 
said that, we're going to move on to the remainder of my time. 
I want to address another DOJ-related matter before this 
Committee.
    On October 28, 2015, you appeared before this Committee for 
an oversight hearing. And during that hearing, I noted that FBI 
Director Comey confirmed that the FBI was investigating 
criminal allegations within the Department of Veterans Affairs 
related to the manipulation of wait times. I asked a series of 
questions regarding DOJ's role and activity subsequent to the 
FBI referral. I note that none of these questions would have 
necessitated answers that would compromise active 
investigations.
    If you recall, you were unable to provide those answers 
during the hearing. However, you twice committed to have DOJ's 
Office of Legislative Affairs provide information to my office.
    Subsequently, your staff inquired whether they could 
provide those answers through an informal phone call rather 
than official questions for the record. And the promise from 
your staff was that the answers would be quicker and provide 
more substantive information. And I agreed because I am more 
concerned with getting real answers so we can ensure that our 
veterans receive the care that they have earned.
    After 6 weeks, that informal phone call took place. Citing 
ethical and privacy concerns, your staff refused to answer many 
of those questions--quite the opposite of the promise that an 
informal call would be more substantive. I can only assume that 
your staff intentionally induced my office to participate in 
this informal call to avoid answering these questions, thus, 
obstructing legitimate congressional oversight beyond the 
purview of the public. This is exactly the type of behavior 
that disgusts the American public.
    I attempt to inject transparency on a subject of immense 
public importance and then agreed to coordinate with the 
Administration to get answers and develop solutions, only to be 
subject to partisan games. I sent a follow-up letter to you 
asking for an in-person meeting with an official who could 
provide these answers. I received a response that stated that 
the DOJ ``provided you with information as appropriate and 
consistent with the Department's law enforcement 
responsibilities.''
    I want to clarify. I received no information whatsoever. So 
after 8 months, I will try again. Can you provide a status 
update regarding this investigation?
    Attorney General Lynch. Well, certainly, Congresswoman, I 
can tell you that there has been at least one prosecution. I 
believe it was Southern District of Georgia. And there have 
been other matters that are under investigation that are not 
resolved yet. So we are not able to provide information about 
them.
    And certainly, again, if you would reach out again, we will 
attempt to provide whatever information we can. Where a matter 
is open, however, we are simply not going to be able to provide 
that information. But it is something that we take very 
seriously.
    Mrs. Walters. Of the case that was prosecuted, was that 
case a charge against the VA employee for manipulating wait 
times?
    Attorney General Lynch. I will confirm that and get back to 
you.
    Mrs. Walters. Okay. And I would appreciate a response from 
you or your staff. And how many VA medical facilities are under 
active investigation for manipulating patient wait times and 
when do you expect those investigations to conclude?
    Attorney General Lynch. I missed the very first part of 
your question. I'm sorry.
    Mrs. Walters. How much VA medical facilities are under 
active investigation for manipulating patient wait times and 
when do you expect those investigations to conclude?
    Attorney General Lynch. I'm not able to give you a 
timetable for any of the open investigations. I don't have the 
number. And we will see if we are able to provide you with some 
clarity on the number.
    Mrs. Walters. Yeah. You should be able to provide clarity 
on the number and that's where we are getting stonewalled. I 
mean, they wouldn't give us any information to my staff at all 
and it's very frustrating.
    Okay another question. How many cases has the DOJ declined 
to prosecute or press charges against VA employees for 
manipulating wait times?
    Attorney General Lynch. I don't have that information. 
Again, we'd have to look into that.
    Mrs. Walters. Okay. Again, another question that could be 
answered because we are not asking specific private information 
of people.
    And can you provide the reasoning that the DOJ declined to 
pursue each of these cases?
    Attorney General Lynch. I don't have that information, so--
--
    Mrs. Walters. Okay. So I will look forward to having my 
answers from your staff and I appreciate.
    And I yield back my time. I appreciate your time. Thank 
you.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
expresses the interest of the Committee in getting the answers 
to those questions as well.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Trott, for 5 minutes.
    Mr. Trott. I thank the Chairman.
    Attorney Lynch, thank you for your time today.
    In 1965, a Member of the Senate Labor Committee complained 
to the Chairman of the Committee that the new junior Senator 
from New York was getting preferential treatment, and the 
Chairman responded, ``I'm not treating Bobby Kennedy any 
different than I would any other future President of the United 
States.''
    Did Hillary Clinton receive treatment that was different 
than others?
    Attorney General Lynch. She received no treatment different 
from any other. The only difference in this case is that we 
have, again, as I've indicated before, provided more 
information about, at least from the FBI's point of view, the 
investigative team's thoughts on this.
    Mr. Trott. So if a member of your staff took classified 
information home, put it on their server, their laptop, nothing 
would happen to that person?
    Attorney General Lynch. We would review the matter and come 
to the appropriate decision. We would look at it to see all of 
the relevant ramifications and see what fit.
    Mr. Trott. So, you know, the meeting on the tarmac with 
former President Clinton, that was a pretty fortuitous meeting 
for you, wasn't it?
    Attorney General Lynch. I would not say that.
    Mr. Trott. I will give you a perfect alibi because if you 
had recused yourself as some have suggested at the outset of 
this investigation because you are friends with the Clintons 
and maybe hope to be Attorney General in her Administration, 
then you wouldn't have--then you could stand here and say I 
defer to the FBI Director. But you didn't recuse yourself. But 
now you're using the meeting on the tarmac to basically say: To 
avoid the appearance of impropriety, I can't answer your 
question. Isn't that basically what's happened here today?
    Attorney General Lynch. Congressman, I would not say it was 
fortuitous for me or for anyone. It led me to take, again, 
another unusual step in this case outlining my role in that.
    Mr. Trott. But that's what's happened today. In fact, I 
knew you weren't going to answer our questions today. And I 
apologize for wasting so much time here because this has really 
not been very productive. And I asked my staff to count the 
number of times today you would say ``I can't answer that 
question'' or refuse to give an appropriate response. It's 
happened 74 times so far.
    So really--and it's either one or two things. Either you're 
saying that because you want to avoid the appearance of 
impropriety, in which case you should have recused yourself, or 
you're trying to protect Hillary Clinton.
    So my colleague, Mr. Smith, asked earlier if you had talked 
with Bill or Hillary about serving as Attorney General in 
Hillary's administration. Have you talked to any of their 
staff?
    Attorney General Lynch. No, I have not.
    Mr. Trott. Have you talked to anyone on their transition 
team? I know they are talking to people.
    Attorney General Lynch. I have not spoken to anyone either 
the campaign or the transition or any staff members affiliated 
with them.
    Mr. Trott. Do you want to be Attorney General?
    Attorney General Lynch. My focus is on being the Attorney 
General throughout the remainder of this Administration and 
dealing with the issues that I have discussed here; 
particularly, my focus on law enforcement and community 
relations and national security as represented by the 
Department's work in the most recent tragic actions facing this 
country; also my work involving vulnerable victims of human 
trafficking.
    My focus is on making sure that the resources and assets of 
the Department of Justice are dedicated toward those important 
goals, particularly when it comes to individuals who feel at 
odds or left out or somehow cut out of our society and 
therefore have--or in a situation where their relationship of 
trust with law enforcement and government----
    Mr. Trott. Thank you, General. I want to reclaim my time.
    Why did you tell the FBI security detail not to have any 
cameras or phones when you met with President Clinton on the 
plane?
    Attorney General Lynch. I didn't make any comments about 
cameras or phones or anything.
    Mr. Trott. So no one directed the security detail not to 
take any pictures or anything like that?
    Attorney General Lynch. I did not. I didn't make any 
comments about cameras or phones or anything.
    Mr. Trott. So last week Director Comey, I think when he was 
being questioned by Mr. Gowdy, said that Hillary Clinton didn't 
tell the truth when she said that she turned over all the 
emails; that all of the emails had been reviewed by her 
lawyers; that nothing was classified; that she only had one 
device. And he was quite pointed in his comments that she 
wasn't telling the truth about all of those matters and other 
issues. Do you think she told the truth?
    Attorney General Lynch. You know, I'm not privy to the 
reasoning on that. My understanding is that after that 
exchange, a Committee was going to decide whether or not to 
make a referral. If that were the case, the matter would be 
reviewed and looked at and it would be not appropriate to go 
into it until then.
    Mr. Trott. But you didn't recuse yourself, so you are 
really using that meeting on the tarmac as a way to avoid 
answering our questions. Isn't that is what's happening here? 
You're saying to avoid the appearance of impropriety----
    Attorney General Lynch. I talked about my conversation with 
former President Clinton as a way to explain how it would have 
no impact on the case. And I felt it was important to explain 
that because I had earlier decided that I would be accepting 
the team's recommendation, but that also we didn't talk about 
anything involving cases or the investigation itself. The 
conversation was, as I've noted earlier, primarily personal and 
on his part. We have taken that unusual step so there would not 
be a view that there would be any influence on that, on this 
matter at all.
    Mr. Trott. And you've used that to not answer our questions 
today.
    Attorney General Lynch. I've answered your questions. If 
you have more, I'm happy to hear them.
    Mr. Trott. Let's segue to the three mortgage settlements 
for billions of billions of dollars, where in excess of half a 
billion dollars was basically put into a slush fund to be 
steered toward liberal community service groups. Any more 
information on whether the attorneys at DOJ that were involved 
in mandating money not be steered toward conservative groups, 
any repercussions for that?
    Attorney General Lynch. Congressman, with respect to the 
issue of the settlements that were crafted in some of the 
residential mortgage-backed securities resolutions, I believe 
that our staffs have had discussions about that. We have 
provided information to answer questions about that. I believe 
we are working to provide more information. Again, let us know 
if there are additional questions there.
    Those settlements were, in fact, under the FIRREA statute, 
did generate large fines that went to the U.S. Treasury, and 
payments to other groups were not of government funds, but they 
went to organizations that have helped literally tens of 
thousands of Americans modify mortgages and bring their homes 
out from being under water and allowed them to keep their 
homes----
    Mr. Trott. Sure.
    Attorney General Lynch [continuing]. Which is the consumer 
relief that we were hoping we could effectuate through these 
settlements.
    Mr. Trott. And the settlement probably violated the 
Miscellaneous Receipts Act, but that's a discussion for another 
time.
    Thank you, General.
    I yield back my time.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Michigan, Mr. Bishop, for 5 
minutes.
    Mr. Bishop. Thank you, Mr. Chairman.
    Thank you, General Lynch, for being here today. I know that 
the Attorney General's office is required to--the folks in your 
office are required to attend ethics training every year. Are 
you required to, as the Attorney General, to attend those as 
well?
    Attorney General Lynch. I do.
    Mr. Bishop. And do they cover, I'm sure, the issue of 
conflict of interest and doing whatever is possible to avoid 
the appearance of impropriety?
    Attorney General Lynch. Yes.
    Mr. Bishop. I say that in the context of the question that 
was just asked regarding the meeting on the tarmac. And I 
wondered if--and I know that you've indicated since then that 
you regret the unscheduled meeting and that, moreover, the most 
important thing for you as Attorney General is the integrity of 
the Department of Justice, which I appreciate. And I think most 
Americans would agree with that statement.
    Do you recall when and whom the--told you that former 
President Clinton wanted to speak with you?
    Attorney General Lynch. As I indicated, I was getting ready 
to leave the plane, to disembark with my husband, and I don't 
recall who, but I was informed that former President Clinton 
wanted to say hello. So I agreed that he could say hello.
    Mr. Bishop. Okay.
    Attorney General Lynch. And he did come on board and speak 
with my husband and myself and other people.
    Mr. Bishop. Right. I remember that part. But full stop, 
right at that moment, at that very moment I want you to think 
back. Did you think even for a split second that maybe perhaps 
that wasn't the right thing to do; that there might be a 
conflict of interest or at the very, very least, an appearance 
of impropriety to have that meeting with the spouse of a person 
under investigation and, in fact, a key witness in another 
investigation, a former President of the United States, just 
for a second, at that moment, did you think about that?
    Attorney General Lynch. I will tell you, Congressman, that 
at that moment my thought was, as it is in many instances, that 
I respond to courtesy with courtesy. And I viewed it as a brief 
social greeting. And it turned into a longer conversation, 
certainly, than I had anticipated, and----
    Mr. Bishop. But at any time during that meeting did you 
feel--did it ever occur to you--I mean, you say in retrospect 
you regret it, but during that timeframe did you regret it at 
all?
    Attorney General Lynch. Congressman, at the time that we 
had the conversation, as I indicated, I viewed it as a social 
conversation, similar to when other individuals had asked to 
say hello, and we speak and move on.
    Mr. Bishop. Fair enough. Fair enough. You've answered the 
question. Thank you very much for that answer.
    You've indicated that the career prosecutors from your 
office assisted in the investigation, reviewed the evidence 
with the investigators with the FBI, correct?
    Attorney General Lynch. They were the line team, as we call 
it.
    Mr. Bishop. Okay. So you had a team working. So did those 
career prosecutors have the opportunity to advise FBI 
investigators as to whether or not this was an actionable 
offense, whether probable cause existed?
    Attorney General Lynch. Well, certainly, they would have 
provided legal analysis. I'm not able to go into their specific 
discussions, obviously.
    Mr. Bishop. So I get that.
    Attorney General Lynch. But they would have had discussions 
about the facts and about the legal analysis.
    Mr. Bishop. So your--your team did--your teams was part of 
the team, that the Department of Justice was part of this FBI 
investigation?
    Attorney General Lynch. Well, the FBI is part of the 
Department of Justice also.
    Mr. Bishop. Well, okay.
    Attorney General Lynch. And I apologize for the confusion. 
When I refer to the DOJ team, I actually mean the lawyers and 
the agents. So I apologize for that confusion.
    Mr. Bishop. So--but these were lawyers from your office, 
though, that were part of this team is what I'm getting at, and 
they were part of--were they part of also the recommendation 
that was provided by Director Comey? Do they help draft that 
recommendation?
    Attorney General Lynch. Well, my understanding is that 
Director Comey provided the information and recommendation that 
he provided. The information that I received was from the team. 
It included Director Comey. And they----
    Mr. Bishop. Okay. So what I'm saying is, I don't want to 
mince words here and I don't want to--I don't want to be 
elusive in my question, I want to be as direct as possible. 
Your team was part of this investigative process, so your team 
was also part of the recommendation that was put forward by 
Comey--Director Comey, excuse me.
    Attorney General Lynch. Well, the recommendation that came 
to me included Director Comey's recommendation. It was a 
unanimous recommendation----
    Mr. Bishop. By the team.
    Attorney General Lynch [continuing]. Agents and 
prosecutors, yes.
    Mr. Bishop. Okay. So I understand it. So this really was 
your recommendation that you accepted from your team?
    Attorney General Lynch. It was a recommendation of the 
career agents and prosecutors who had done----
    Mr. Bishop. In your office.
    Attorney General Lynch [continuing]. Who had done the work. 
They were, as I indicated before, from within the National 
Security Division----
    Mr. Bishop. Okay.
    Attorney General Lynch [continuing]. Affiliated with main 
Justice. And they are the ones who made the recommendation to 
me. And my decision was to accept their recommendation.
    Mr. Bishop. Okay. Let me ask you one more thing. I know my 
time is fleeting here.
    Did Secretary Clinton have counsel present for the 
interview at the FBI?
    Attorney General Lynch. I'm not privy to the details of her 
meeting.
    Mr. Bishop. Okay. So you don't know whether or not she was 
questioned under oath or whether recorded or any of those?
    Attorney General Lynch. I'm not privy to the details of 
that.
    Mr. Bishop. Okay. You indicated earlier you--my colleague 
made mention of the fact that there were relevant statutes in a 
certain case, an investigation that was going on. What are the 
relevant statutes involved in this Hillary--Secretary Clinton 
case?
    Attorney General Lynch. I believe that they have been 
discussed in terms of mishandling classified information and--
--
    Mr. Bishop. But can you cite those chapter and verse, so 
that I understand that you reviewed and understand the statutes 
that are being used?
    Attorney General Lynch. Let me----
    Mr. Goodlatte. The time of the gentleman has been expired, 
but the witness will be requested to answer the question.
    Attorney General Lynch. Thank you. Let me get you the exact 
citations of statutes that would have been under consideration, 
because I don't want to misstate here. But we have discussed 
them here generally, and the discussions have been of the 
relevant statutes. They have been discussed here. But let me 
get you the exact citations.
    Mr. Bishop. Okay. Thank you, Mr. Chairman. And I would 
yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Georgia, Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    I want to, before I get into some other questions, I want 
to express my concerns over the Antitrust Division's proposed 
recommendations regarding consent decrees on performing rights 
organizations, specifically ASCAP, BMI. Rather than 
meaningfully discussing and reviewing the consent decrees, the 
Antitrust Division appears to have committed instead to 
reinterpreting existing agreements in a way that fundamentally 
changes the way license rights are jointly owned. You've heard 
this already.
    The concern, it can be broken down in a couple of ways. 
Number one, this goes completely, is contradictory to the U.S. 
Register of Copyrights, completely contradictory to the 
information that has been given from there. And the Antitrust 
Division's proposal to reinterpret the existing consent decrees 
to govern the PROs recommends a shift to 100 percent licensing 
and away from the current form of fractional licensing.
    The Reviewer of Copyrights has previously said this is--it 
violates basically the principles of copyright law and 
interferes with creative collaborations among songwriters, 
negates private contracts, and impermissibly expands the reach 
of consent degrees. The way I see it, American songwriters are 
grasping for air and the Antitrust Division just took them off 
life support.
    And there's issues here because in this instance, the 
acting head of the division of the Department of Justice is 
making a decision that flies in the face not only of another 
agency, but also--and putting an industry at risk--there is at 
least the appearance of conflict of interest among this head 
with the person making the decision at DOJ, based on a previous 
experience.
    Now, listening to you all day, I'm not expecting a direct 
answer, unfortunately. But--and your answer earlier doesn't 
ring true. You have answered several times that they are 
continuing to look at this and be a part.
    Well, let me just say, I've had conversations with parties 
that have been a part of this and they have been specifically 
told the division has concluded that it would not be in the 
public interest to modify these consent decrees into fractional 
licenses. That sounds like it has already been made up. So we 
are going ahead and just preempting the time.
    And I would just ask, would you be willing to look at this, 
considering the concerns here, and do an internal independent 
review of this Antitrust Division's recommendations?
    Attorney General Lynch. Well, thank you, Congressman. 
Again, as I have said before, my understanding, as has been 
briefed to me, is that the Antitrust Division's review and 
recommendations, the review is not complete and the 
recommendations have not been made. That while they are 
consulting with various stakeholders--and I do not know if 
those are some of the individuals with whom you have spoken--
that that discussion--that those discussions, I should say, are 
still ongoing, and that it will be still a few more months 
until----
    Mr. Collins. I appreciate that. I'm going to reclaim my 
time here because this is an issue that I know might not be on 
your radar at this point. I'm wanting to put it square front 
and center on your radar because this is a decision that 
affects a great deal.
    But it goes back to something that is very disturbing. I 
never thought I would say this. I actually, and I say this with 
due respect, Attorney General, I miss Eric Holder, because at 
least when he came here he gave us answers. We didn't like it.
    But I have spent the last 4 hours listening to basically 
the Attorney General of the United States not willing to make a 
concrete statement of law, to not be willing to say that when 
given the opportunity by a colleague of mine, who made the 
decision in this case. I understand Director Comey stepped up 
and said here is the decision we recommend. And you all, you 
have been willing to say is, well, we just accepted the team's 
recommendation.
    When given the opportunity to say, do you accept this 
decision, you have never answered directly that you owned this 
decision. Do you own this decision?
    Attorney General Lynch. Congressman, as I have stated, I 
made the decision and I do accept--I did accept it and, 
therefore, I made the decision to accept that recommendation. 
That was the action that I took.
    Mr. Collins. The problem that we are having here, though, 
is you took a decision because you had to. Your own words just 
a few moments ago, that the meeting on the tarmac led you to do 
something, that was your exact words, it led me to do 
something, and that was basically recuse yourself, but didn't 
recuse yourself. You just said: I'm going to accept what they 
tell me.
    Attorney General Lynch. It led me to discuss the decision 
that I already made about how the matter would be handled.
    Mr. Collins. Had you already had conversations with the 
team before you made this statement and before the meeting on 
the tarmac?
    Attorney General Lynch. No. Before I had a conversation 
with former President Clinton, I had not spoken with the team. 
I had concluded in my mind how it should best be resolved 
because I had tremendous faith in their work, in their 
integrity. And so there were no conversations before that.
    Mr. Collins. Did you have it as it would best be resolved 
as far as what they're doing and the way it was going about or 
the end outcome?
    Attorney General Lynch. I had no conversations about the 
end outcome of the investigation.
    Mr. Collins. Do you believe that there is such a thing as a 
strict liability defense?
    Attorney General Lynch. Depending upon the statute. In the 
FIRREA matter, for example. In OSHA----
    Mr. Collins. No, ma'am. No. No. We went to law school. Is 
there strict liability defenses or not?
    Attorney General Lynch. In OSHA, for example, there are.
    Mr. Collins. Is that a yes or a no?
    Attorney General Lynch. In some environmental cases there 
are.
    Mr. Collins. Simply yes or no.
    Attorney General Lynch. I have given you two examples.
    Mr. Collins. No. I want a yes or A no. Is there a strict 
liability----
    Attorney General Lynch. I've given you two examples.
    Mr. Collins. The issue that we have here is there is no 
ownership at DOJ. It's no wonder the optics are so bad. I've 
never agreed probably with David Axelrod in my life, but the 
optics of this are terrible and you today have made it worse.
    And as also a member of the military who just got through 
with my drill duty this weekend, you have basically to me 
offended every military member here who handles classified 
information, who does so with their training, and you have 
basically said: Well, it depends on this.
    I got a question for you. Riding down the road, the speed 
limit says 55, I'm doing 65. Have I broke the law?
    Attorney General Lynch. You'd have to ask the highway 
patrol.
    Mr. Collins. Oh, my God.
    Attorney General Lynch. They would likely write you a 
ticket. They would likely write you a ticket for that.
    Mr. Collins. I went to a small law school. We taught the 
law. Harvard, I'm not sure anymore. Did you break the law or 
not; 65 in a 55. My dad was a state trooper.
    Attorney General Lynch. As I said before----
    Mr. Collins. Be careful with your answer. You're under 
oath.
    Attorney General Lynch. As I said before, you would get a 
ticket for that.
    Mr. Collins. Okay. So you broke the law.
    Attorney General Lynch. You would be cited for that. That 
would be considered an offense.
    Mr. Collins. When you've been asked many times, you've 
said: I'm not going to talk about this. The day after you said: 
Well, I'm just going to have to accept whatever they tell me. 
Because you're not going to do any investigation. You're not 
going to put the Attorney General, the top law enforcement 
officer's stamp of approval on it. You said: I'm just going to 
accept whatever they give me.
    Did you at least read anything before you had a press 
conference the next day? Did you at least look at the testimony 
from Hillary Clinton.
    Attorney General Lynch. Well, Congressman----
    Mr. Collins. Did you at least look at anything?
    Attorney General Lynch. No, I did not hold a press 
conference. I issued a statement.
    Mr. Goodlatte. The time of the gentleman has expired. The 
witness can answer the question.
    Attorney General Lynch. Thank you, Mr. Chairman.
    I did not issue a press conference. I issued a statement. I 
did receive a briefing from the team. It was thorough. It 
discussed the findings that they had come to. It discussed the 
legal analysis that they had made. My decision was to accept 
those findings. And as I've said before, that was my decision.
    Mr. Collins. As a famous leader once said: The buck stops 
with me. Please go read that. This has been depressing.
    Mr. Goodlatte. The Chair thanks the gentleman.
    I recognize the gentleman from California, Mr. Peters, for 
5 minutes.
    Mr. Peters. Thank you. And I would like to thank the 
Attorney General for being here for this long period of time.
    And since I'm the last person, literally, my colleagues on 
the--on this side have exhausted a lot of the topics about 
community policing, gun safety, police misconduct. There was 
even a question about the compensation for songwriters. I don't 
think a single one of my colleagues on the other side of the 
aisle has asked a question about something other than Secretary 
Clinton's emails, so that topic has been extensively covered.
    I do wish that she had not used the--a private server. I do 
wish that you had not had that meeting on the tarmac. And I 
think each of you has acknowledged these errors, to your 
credit.
    But my colleagues throughout this hearing have exhibited an 
honest and a passionate concern about the law and about the 
Constitution here today with regard to Mrs. Clinton. And we are 
serious about the Constitution here in the Judiciary Committee. 
They even give us a pocket Constitution in each of our drawers. 
And I wanted to ask a couple of questions about the 
constitutional issues that might be raised by some of the 
proposals of another candidate for President.
    Mr. Trump has proposed a ban on Muslims entering the 
country until our leaders figure out what the heck is going on. 
Now, putting aside the vagueness of that proposal, do you see 
any constitutional issues that are raised by such a proposal? 
Are there any barriers to such a proposal raised by the 
Constitution?
    Attorney General Lynch. So, Congressman, I will tell you 
that I do not have a comment on any of the candidates and their 
specific proposals. That is not my role, and I have chosen not 
to comment on specifics that any candidate may offer.
    What we have said about any proposal to ban a particular 
group is that it would not be in the interest of law 
enforcement and would not advance the goals of law enforcement 
to do so. But I don't have a comment on any of the comments or 
proposals of any of the candidates.
    Mr. Peters. Has the Justice Department under you considered 
a registry of Muslim Americans that would keep track of where 
they moved?
    Attorney General Lynch. That has not been a consideration 
of ours.
    Mr. Peters. Do you not think that would be useful?
    Attorney General Lynch. Well, as I've indicated, the way in 
which we interact with the Muslim-American community has been 
one where we are trying to grow cooperation and trust. They 
are, in fact, an ally in many investigations that we have. They 
have been helpful in providing information about various 
issues. And so it has been more effective, in our view, to deal 
with individuals from any particular community as all 
Americans.
    Mr. Peters. Might that also, such a proposal, pose a burden 
on the free exercise of religion under the First Amendment.
    Attorney General Lynch. Well, certainly I would not support 
any burdens on the free exercise of religion.
    Mr. Peters. Have you ever considered whether women might be 
punished for seeking an abortion? Is there any----
    Attorney General Lynch. Again, Congressman, to the extent 
that it relates to something that a particular candidate has 
raised, I'm not going to comment on that. I think that that 
issue has been discussed considerably in the press. I think it 
depends upon the State laws at issue there. And as I said 
before, it is because my role is not to comment on the campaign 
or any of the candidates. And so I apologize for that, but I 
don't have a comment on that.
    Mr. Peters. And then I guess the other thing that was 
raised--and, you know, you're the Attorney General, so I don't 
have anyone else to ask--but the idea that if we entered into a 
treaty or an agreement with other countries, a new President 
might come in and rip it up. I don't suppose you have any view 
on the constitutional mechanism to do that by executive action 
alone?
    Attorney General Lynch. Well, I actually don't have 
knowledge of the process by which one could revoke a treaty, 
and so I'm not able to answer that question for you.
    Mr. Peters. Well, it's my observation that, you know, we 
talk a lot about executive overreach in this Committee. In 
fact, I think we have another--the next hearing is on executive 
overreach. And the kinds of proposals that are coming out of 
the other campaign--and this has been, you know, this, frankly, 
has been about a Presidential candidate. I don't think we're--
any of us is under the illusion that this is all about one 
prosecution. This has to do with the political campaign. I 
think Ms. Lofgren suggested that some Members of the Committee 
were disappointed by your failure to obviate the need for an 
election by prosecuting Secretary Clinton.
    So I just raise the point that, you know, executive 
overreach appears to go both ways, and I want my colleagues to 
consider that as they spend the next week supporting the 
candidate who's really the king of executive overreach. And I 
guess that's not your issue today, but I hope we don't have to 
face that in the next term.
    I do want to thank you very much for spending the time 
here. I know it's been a long day. And I appreciate your 
service. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Texas, Mr. Ratcliffe, for 5 
minutes.
    Mr. Ratcliffe. General Lynch, after your meeting with Bill 
Clinton, you were asked in an interview about the appearance of 
impropriety, and said, ``No matter how I view it, I understand 
how people view it. It has now cast a shadow over how this case 
may be received.'' Do you remember saying that?
    Attorney General Lynch. That was a few days afterwards in 
an interview, yes, sir.
    Mr. Ratcliffe. And we know that you made the decision at 
that point not to recuse yourself from this investigation. Two 
days after you made that statement about casting a shadow on 
the integrity of the Department of Justice, The New York Times 
reported that ``Democrats close to Mrs. Clinton say that she 
may decide to retain Ms. Lynch, the Nation's first Black woman 
to be Attorney General.''
    Did the timing of that, right after the Bill Clinton 
meeting, give rise to any thought in your mind of reconsidering 
whether or not recusal in the light of appearance of 
impropriety might be appropriate?
    Attorney General Lynch. Congressman, I have no knowledge of 
the source of that statement, nor have I had any conversations 
about that.
    Mr. Ratcliffe. Have you given it any thought?
    Attorney General Lynch. My view was that I needed to 
discuss the conversations I had with the former President to 
clarify my role in the investigation.
    Mr. Ratcliffe. Let me move on. So I don't want to impugn 
your integrity by asking you whether the prospect of future 
employment as Attorney General in a Hillary Clinton 
administration influenced your decision whether or not to 
recuse yourself or influenced your final decision regarding 
prosecution, but now that you have already made that decision 
and closed the matter, will you consider serving as an Attorney 
General in the Hillary Clinton administration?
    Attorney General Lynch. Congressman, my focus is on serving 
as Attorney General in this Administration.
    Mr. Ratcliffe. No, I don't care about your focus. What I 
want to know is, will you rule it out?
    Attorney General Lynch. That is my focus now.
    Mr. Ratcliffe. You won't rule it out?
    Attorney General Lynch. It is working on the issues before 
the Department of Justice.
    Mr. Ratcliffe. Will you rule it out?
    Attorney General Lynch. That matter is not before me.
    Mr. Ratcliffe. Well, I got to tell you, that shadow that 
you cast on the Department of Justice just got a whole lot 
bigger. Because if you're not willing to rule out future 
employment in a Hillary Clinton administration, what that means 
is the American people have every right to wonder whether or 
not you looked at this through a fair and impartial lens.
    Because your answer tells the American people that after 
the FBI Director told you that Ms. Clinton had been extremely 
careless with at least 110 emails marked as top secret, secret, 
or classified, and may have jeopardized the lives of actual 
Americans, and told you that she made numerous false public 
statements about sending, receiving, or turning over classified 
materials, you might want to apply for a job with her?
    Attorney General Lynch. Sir, I have no comment on that.
    Mr. Ratcliffe. Your answer not ruling employment with her 
means that as much of the free world is wondering whether or 
not Hillary Clinton should have been prosecuted and possibly 
sent to prison for being extremely careless, as the FBI 
director said, with hundreds of top secret, secret, and 
classified emails, you're telling the American people watching 
today that instead of going to jail, faced with the prospect of 
possible future employment, you think she should go to the 
other end of the spectrum and be eligible to be the person with 
greater access and greater control over America's most 
sensitive and trusted national security information than anyone 
else on the planet.
    I got to tell you, utter shock is an understatement with 
respect to what I just heard you say. So let me ask you this 
question. Based upon----
    Attorney General Lynch. Well, Congressman, let me--as I 
indicated----
    Mr. Ratcliffe. No, I want to ask you this question. My time 
is limited, and the clock is moving.
    Based upon your unwillingness to rule out future 
employment, in light of the fact that you and your husband had 
a 30-minute conversation with the spouse of a pending Federal 
investigation, the subject or target of a pending Federal 
investigation, and with a person who would be the subject or 
target of the Federal investigation if there is one into the 
Clinton Foundation, would you at least agree with me that if 
there is such an investigation, you'll have to recuse yourself 
from that one?
    Attorney General Lynch. Congressman, with respect to other 
matters before this Committee or any other, or before the 
Department of Justice, they will be reviewed like any other. I 
will take all of the appropriate action that I would need to 
take in that instance.
    Mr. Ratcliffe. I will take that as a no and let me move on 
then, because I have got a really important----
    Attorney General Lynch. And, Congressman, as I've indicated 
to your colleague, just as I will not comment on the statements 
of candidates or the candidacy of anyone, either side, I would 
not comment on the candidacy of the other one.
    Mr. Ratcliffe. With all due respect, I'm not going to let 
you run out the clock on the American people that have 
questions that need to be answered, so let me move on.
    On July 5, 1 week after your meeting with Bill Clinton, the 
FBI Director made an unprecedented, extraordinary public 
recommendation not to indict. But his statement was just a 
recommendation. You said: I made the decision. And in his 
statement to the press, he said that what that decision would 
include would be ``considerations like the strength of 
evidence, especially regarding intent.'' He said also that a 
responsible decision would consider the context of a person's 
actions.
    So my question to you is, as you made the decision, did 
your final decision weigh the strength of the evidence in the 
context of Hillary Clinton's actions?
    Attorney General Lynch. I will tell you, Congressman, that 
that was part of what the team that was presenting to me was 
focused on. And it was a--it was--certainly encompassed those 
issues, as well as all of the other issues that I have 
indicated before that would be in that. It would be contained 
within their entire recommendation to me.
    Mr. Ratcliffe. And that was reflected in your two-sentence 
statement about--that starts out: Late this afternoon I met 
with FBI Director Jim Comey and career prosecutors.
    By the way, how long did that meeting last?
    Attorney General Lynch. You know, I don't recall.
    Mr. Ratcliffe. Hours?
    Attorney General Lynch. I don't recall, and I wouldn't be 
providing that information.
    Mr. Ratcliffe. More than hours?
    Attorney General Lynch. I don't recall and would not be 
providing that information.
    Mr. Ratcliffe. This was late in the afternoon. I assume it 
was in 1 day?
    Attorney General Lynch. It's clear from the statement when 
the meeting occurred.
    Mr. Ratcliffe. Okay. So it happened the day after, and 
apparently within a matter of hours, if it happened in 1 day. 
So you just told us that after a yearlong investigation 
involving 150 FBI agents working around the clock, involving 
more than 30,000 emails, tens of thousands of man-hours, that 
your thoughtful, careful weighing of strength of the evidence 
took you an afternoon, a cup of coffee with the FBI Director, 
that your decision in this case for charges relating to a 
person who, according to the FBI Director, said was extremely 
careless handling America's most sensitive national security 
matters and is seeking to be a candidate in charge of America's 
most sensitive national security matters, took the better part 
of an afternoon. It didn't last weeks, didn't last months, 
didn't take days. You weighed that evidence, determined her 
intent and gross negligence in a matter of hours.
    Will you at least tell the American people whether or not 
you at least reviewed the 110 top secret, secret, and 
classified emails that we know that she sent and received on an 
unsecure, unauthorized server? Will you at least answer that?
    Attorney General Lynch. As I have indicated----
    Mr. Goodlatte. The time of the gentleman has expired. The 
witness is permitted to answer the question.
    Attorney General Lynch. Thank you, Mr. Chairman.
    As I've indicated, I received a recommendation after a 
briefing from the team, which included the career lawyers, as 
well as the FBI Director. I received a full and thorough 
briefing. We reviewed and discussed the matter and I accepted 
their recommendation.
    And as I've indicated earlier, again, just to be clear, the 
reason I do not go into these internal meetings is because the 
teams of prosecutors and agents who work on every matter need 
to be able to provide their full and unfettered advice, 
counsel, discussion, without the fear of political overtones, 
without the fear of that kind of thing.
    Mr. Ratcliffe. Since you didn't answer that question, I'll 
give you a preview that I'll ask Director Comey that when he's 
in front of Homeland next week.
    And let me just close then, summarize by saying, so less 
than after a week after you meet privately with the spouse of a 
target of a Federal investigation, a target with whom you 
haven't ruled out applying for a job, you didn't recuse 
yourself and instead spent a grand total of a few hours 
reaching a decision regarding tens of thousands of documents 
involving our national security, and you can't seem to 
understand why the American people, Republicans, Democrats, and 
independents, are outraged at your action?
    If you thought the meeting that you had on the tarmac with 
Bill Clinton cast a shadow over the integrity of the Department 
of Justice, what I've heard today from you made the size of 
that shadow--made the size of that shadow something that I will 
tell you that as far as casting shadows that the American 
people pay attention to, Punxsutawny Phil's got nothing on you.
    I yield back.
    Mr. Goodlatte. General Lynch, Mr. Ratcliffe had a number of 
good questions, and he cut you off on some of the answers. If 
you'd like to give an answer to anything that he just posed, 
we'd be happy to give you additional time to do that.
    Attorney General Lynch. Thank you, Mr. Chairman. I will not 
take a great deal of your time.
    The only comment that I wanted to make clear for the record 
was just as with respect to questions about the--any 
Presidential candidate or candidate for any other office, just 
as I would not opine on policies or issues raised by one, I 
would not opine on policies or issues raised by the other. That 
is something that I want to make it clear. That is not my 
function as the Attorney General. I'm not attempting to do that 
in any way here.
    So just as I would not opine with respect to the questions 
raised by Congressman Peters, I did not want to appear to be 
responding about Mrs. Clinton as a candidate. My responses here 
have been with respect to the matters before the Department of 
Justice and the Department of Justice alone.
    As I've indicated, we have provided unprecedented access 
into the thinking of the investigative team in this case. We 
have also--I have provided access into the process by which the 
Department was resolving this matter, things that we rarely do, 
but I felt was important to do in order to make it clear to the 
American people that my role in this matter had been decided 
before I had a conversation with the former President. That 
conversation did not have any impact on it. And that in fact, 
as with every case, the team of experienced career prosecutors 
and agents who reviewed this diligently, thoroughly, and at 
great length had gone to great lengths and came up with a 
thorough, concise, and exhaustive review and recommendation, 
which I then accepted.
    And while I understand the frustration by people who 
disagree with that decision, as I've indicated before, it is 
similar to the frustration of people who may have a situation 
where they are the victim of a crime and we're not able to 
bring a case, and we have had similar discussions with 
individuals in that category as well.
    So I understand that frustration and the desire to see 
action in a certain matter where feelings are strong and 
emotions run high. But in this case, as with every other case 
that the Department handles, we looked at the law, we looked at 
the facts, they were applied, and a conclusion was come to that 
was consistent with the law and those facts. And I accepted 
that recommendation.
    Mr. Goodlatte. Well, General Lynch, this concludes our 
hearing. I thank you for providing us with more than 4\1/2\ 
hours of your time. However, scores of questions were posed to 
you that were not answered by you. Some you have offered to get 
back to us about in writing afterwards. We will be forwarding 
to you additional questions related to other matters raised, as 
well as the investigation and nondecision to prosecute former 
Secretary of State Clinton, and we would expect that you would 
answer those questions.
    You are the chief law enforcement officer of the United 
States, and--okay--you are the chief law enforcement office of 
the United States, and the final decision regarding the 
prosecution is yours. And the fact that you were not able to 
provide us with answers regarding how that decision was reached 
is very concerning to Members of this Committee and to the 
American public.
    I do thank you for appearing today. Without objection, we 
will make a part of the record a letter from Congresswoman 
Walters to you, General Lynch, and your response--or actually 
Peter Kadzik's response to her first letter, dated December 17, 
2015, the second, January 15, 2016. And I know you have made a 
commitment to respond further regarding her inquiry regarding 
the Department of Veterans Affairs.***
---------------------------------------------------------------------------
    ***Note: The material referred to is not printed in this hearing 
record but is on file with the Committee, and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105175
    Attorney General Lynch. Yes.
    Mr. Goodlatte. With that, the Committee--this concludes the 
hearing, and we thank you for your appearance today. And 
without objection, all Members will have 5 legislative days to 
submit additional written questions for the witness or 
additional materials for the record.
    And with that, the hearing is adjourned.
    [Whereupon, at 2:47 p.m., the Committee was adjourned.]
    
    
    
    
    

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Questions for the Record submitted to the Honorable Loretta E. Lynch, 
         Attorney General, United States Department of Justice*
---------------------------------------------------------------------------
    *Note: The Committee had not received a response to these questions 
at the time this hearing record was finalized.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
